<html>
<title> - IRAN: REALITY, OPTIONS AND CONSEQUENCES. PART 3, REGIONAL AND GLOBAL CONSEQUENCES OF U.S. MILITARY ACTION IN IRAN</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
 IRAN: REALITY, OPTIONS AND CONSEQUENCES. PART 3, REGIONAL AND GLOBAL 
              CONSEQUENCES OF U.S. MILITARY ACTION IN IRAN

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 14, 2007

                               __________

                           Serial No. 110-182

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
51-518                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
TOM LANTOS, California               TOM DAVIS, Virginia
EDOLPHUS TOWNS, New York             DAN BURTON, Indiana
PAUL E. KANJORSKI, Pennsylvania      CHRISTOPHER SHAYS, Connecticut
CAROLYN B. MALONEY, New York         JOHN M. McHUGH, New York
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             TODD RUSSELL PLATTS, Pennsylvania
JOHN F. TIERNEY, Massachusetts       CHRIS CANNON, Utah
WM. LACY CLAY, Missouri              JOHN J. DUNCAN, Jr., Tennessee
DIANE E. WATSON, California          MICHAEL R. TURNER, Ohio
STEPHEN F. LYNCH, Massachusetts      DARRELL E. ISSA, California
BRIAN HIGGINS, New York              KENNY MARCHANT, Texas
JOHN A. YARMUTH, Kentucky            LYNN A. WESTMORELAND, Georgia
BRUCE L. BRALEY, Iowa                PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   VIRGINIA FOXX, North Carolina
    Columbia                         BRIAN P. BILBRAY, California
BETTY McCOLLUM, Minnesota            BILL SALI, Idaho
JIM COOPER, Tennessee                JIM JORDAN, Ohio
CHRIS VAN HOLLEN, Maryland
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
                  David Marin, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
STEPHEN F. LYNCH, Massachusetts      DAN BURTON, Indiana
BRIAN HIGGINS, New York              JOHN M. McHUGH, New York
JOHN A. YARMUTH, Kentucky            TODD RUSSELL PLATTS, Pennsylvania
BRUCE L. BRALEY, Iowa                JOHN J. DUNCAN, Jr., Tennessee
BETTY McCOLLUM, Minnesota            MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                KENNY MARCHANT, Texas
CHRIS VAN HOLLEN, Maryland           LYNN A. WESTMORELAND, Georgia
PAUL W. HODES, New Hampshire         PATRICK T. McHENRY, North Carolina
PETER WELCH, Vermont                 VIRGINIA FOXX, North Carolina
TOM LANTOS, California
                       Dave Turk, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 14, 2007................................     1
Statement of:
    Berman, Ilan, vice president, policy, American Foreign Policy 
      Council....................................................    79
    Gardiner, Colonel Samuel B., USAF (ret.), former faculty 
      member of the National War College, the Naval War College 
      and the Air War College....................................    12
    Pillar, Paul, Ph.D., former National Intelligence Officer for 
      the Near East and South Asia from 2000 to 2005 and Deputy 
      Director of the CIA Counterterrorism Center................    68
    Van Riper, Lt. General Paul K., USMC (ret.), former 
      Commanding General of the U.S. Marine Corps Combat 
      Development Command, first president of the Marine Corps 
      University and Commanding General of the Second Marine 
      Division...................................................    87
    Wilkerson, Colonel Lawrence B., USA (ret.), former Chief of 
      Staff and Senior Advisor to Secretary of State Colin 
      Powell, former Special Assistant to the chairman of the 
      U.S. Joint Chiefs of Staff, and former Director of the U.S. 
      Marine Corps War College...................................     5
Letters, statements, etc., submitted for the record by:
    Berman, Ilan, vice president, policy, American Foreign Policy 
      Council, prepared statement of.............................    82
    Gardiner, Colonel Samuel B., USAF (ret.), former faculty 
      member of the National War College, the Naval War College 
      and the Air War College, prepared statement of.............    15
    Pillar, Paul, Ph.D., former National Intelligence Officer for 
      the Near East and South Asia from 2000 to 2005 and Deputy 
      Director of the CIA Counterterrorism Center, prepared 
      statement of...............................................    71
    Van Riper, Lt. General Paul K., USMC (ret.), former 
      Commanding General of the U.S. Marine Corps Combat 
      Development Command, first president of the Marine Corps 
      University and Commanding General of the Second Marine 
      Division, prepared statement of............................    89
    Wilkerson, Colonel Lawrence B., USA (ret.), former Chief of 
      Staff and Senior Advisor to Secretary of State Colin 
      Powell, former Special Assistant to the chairman of the 
      U.S. Joint Chiefs of Staff, and former Director of the U.S. 
      Marine Corps War College, prepared statement of............     8


 IRAN: REALITY, OPTIONS AND CONSEQUENCES. PART 3, REGIONAL AND GLOBAL 
              CONSEQUENCES OF U.S. MILITARY ACTION IN IRAN

                              ----------                              


                      WEDNESDAY, NOVEMBER 14, 2007

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:25 p.m., in 
room 2247, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Lynch, Higgins, Yarmuth, 
McCollum, Hodes, McDermott, Shays, and Duncan.
    Staff present: Dave Turk, staff director; Andrew Su and 
Andy Wright, professional staff members; Davis Hake, clerk; Dan 
Hamilton, fellow; Christopher Bright, minority professional 
staff member; Todd Greenwood, minority legislative assistant; 
Nick Palarino, minority senior investigator and policy advisor; 
and Mark Lavin, minority Army fellow.
    Mr. Tierney. A quorum being present, the Subcommittee on 
National Security and Foreign Affairs hearing entitled, ``Iran: 
Reality, Options and Consequences. Part 3--Regional and Global 
Consequences of U.S. Military Action in Iran,'' will come to 
order.
    I ask unanimous consent that only the chairman and the 
ranking member of the subcommittee be allowed to make opening 
statements. Without objection, so ordered.
    And I ask unanimous consent that the hearing record be kept 
open for 5 business days so all members of the subcommittee 
will be allowed to submit a written statement for the record. 
Again, without objection, it is so ordered.
    Mr. Shays, I am going to submit my remarks for the record 
and just abbreviate them. I suggest that your remarks also be 
allowed to be submitted.
    I want to again welcome all of our witnesses and thank them 
for subjecting themselves to the delays, but also for being 
gracious enough to come in. We are here to hear what I view as 
an extraordinary group of witnesses testify on a subject of 
increasing importance, the possible consequences of American 
military action against the Islamic Republic of Iran. Today is 
the third hearing in a series that the Subcommittee on National 
Security and Foreign Affairs has undertaken to examine U.S. 
foreign policy toward Iran.
    In our first hearing, we heard experts describe the current 
conditions, the make-up, and the complexity of Iranian society, 
including the largely positive public opinion there toward the 
United States. In our second hearing, we heard insider accounts 
from former senior diplomats and intelligence officials about 
missed negotiating opportunities with the Iranians over the 
past few years.
    Today, we are extremely fortunate to have before us a group 
of top military, diplomatic and intelligence experts who will 
provide the subcommittee with what the public and the Congress 
have needed for quite some time, an unvarnished discussion of 
what could happen should this administration, before exhausting 
all diplomatic avenues, act to commit American forces in war 
against Iran.
    Make no mistake about it, some like to refer to air strikes 
or limited military action or other sanitized and neatly 
controlled terms, but that vocabulary will be meaningless to 
the people on the receiving end of our force. The Iranian 
Government and the Iranian people will see any such action as 
war, and we can expect that they would act accordingly.
    Although some Members of this administration and their 
supporters have loudly opposed attacking Iran, none of them, to 
my knowledge, have explained what potential consequences we as 
a Nation would be left having to manage, not only over the next 
year, but over decades and generations to come.
    History shows us, unfortunately, that it is far easier to 
rattle a saber than it is to clean up the consequences of a 
war. One need only look at a map to understand Iran's 
centrality to a whole host of U.S. national security interests. 
We have a map over there to our right.
    We are in the middle of an expensive and bloody war in Iraq 
and an equally difficult and dangerous campaign to build the 
entire government and infrastructure of Afghanistan. One is at 
Iran's western border, and the other its eastern. We have 
hundreds of thousands of soldiers who have fought and continue 
to fight in these two countries. We have invested hundreds of 
billions of dollars and diverted critical military resources.
    We heard at our second hearing the positive efforts Iran 
played in helping to defeat the Taliban in Afghanistan. We have 
also heard repeatedly about Iran's involvement with the Shi'a 
militia groups in Iran.
    If the United States attacks Iran, how will Iran and its 
allies retaliate? And what impact will this have on the safety 
of our troops and the future stability of both Iraq and 
Afghanistan?
    Instead of hard-nosed diplomacy and efforts to improve 
relations with Iran, or at the very least putting in place 
controlled mechanisms to avoid having small confrontations or 
actions spiraling to major hostilities, this administration has 
been issuing threats and condemnations.
    If you look at the map of Iran carefully you will see that 
Pakistan and Turkey also border Iran--two countries that are 
absolutely vital to regional and global security. And many of 
our closest allies in the Middle East, including Saudi Arabia, 
lie directly across the Persian Gulf and the Strait of Hormuz.
    But as we will hear from our witnesses today, the potential 
consequences of military action in Iran do not just stop with 
those countries directly surrounding Iran. For example, how 
will attack on yet another Muslim country further erode the 
U.S.' broader and long-term efforts to win over hearts and 
minds in our global efforts?
    How will the Arab-Israeli peace process be affected?
    How will China and Russia react? Will they, for example, 
take advantage of these American actions to swoop in and scoop 
up further trade and diplomatic opportunity?
    How will the United States and global economy react to 
actual or threatened disruptions in oil supplies, especially at 
a time when global supplies are stretched to the maximum and 
the U.S. economy show signs of a troubling softening?
    Everyone agrees that the dilemma posed to us in dealing 
with Iran is extremely difficult and complex. There are serious 
and inherent dangers, for example, in an Iran with nuclear 
weaponry. Among other concerns, a nuclear Iran could serve as a 
catalyst to a proliferation surge in the region and pose a more 
threatening presence in the region more generally. Iran has 
also supported groups aligned with terrorist sympathies. And we 
certainly need to continue to carefully explore the role that 
Iran has played in countries such as Iraq and Afghanistan. We 
need to take all of these developments extremely seriously.
    Still, as our two previous Iran-focused hearings and 
numerous other forums have shown, there are significant 
alternatives to war that have not yet been exhausted or 
adequately and skillfully pursued. These alternatives should be 
considered as opposed to using military action as a first 
option or until we are directly threatened. But I worry that, 
unfortunately, the same rosy scenarios and foolhardy thinking 
that led us into Iraq in 2003 are gaining momentum once again 
with respect to Iran.
    I ask the simple question: have we learned any lessons? If 
nothing else, I hope we have learned the importance of having 
our eyes wide open as we contemplate the possible paths 
forward, especially when one of those paths has such pervasive 
consequences as war. That is what our hearing today is all 
about.
    The witnesses here today have been asked to testify because 
of the breadth and depth of their experiences. At least four of 
the witnesses have served in uniform and collectively bring a 
wealth of personal and professional experiences. I know they 
bring a patriotism borne of personal sacrifice and a deep love 
of our country and its rich heritage and strength of ideas.
    I have no doubt that the members of this subcommittee and 
the American people will benefit from the opportunity to learn 
from the decades of collective military, diplomatic and 
intelligence experience before us today. And to do so before 
the drums of war drown out the ability to have a reasoned and 
thoughtful discussion.
    I want to thank the witnesses again for being with us 
today. We look forward to your testimony.
    I now yield to Ranking Member Chris Shays for his opening 
remarks.
    Mr. Shays. Thank you, Mr. Chairman, for holding this third 
hearing and for holding the first two.
    The decisions we make about our future relations with Iran 
must be based on bipartisanship at home and discussions with 
our allies abroad. Former Secretary of State Henry Kissinger 
has described Iran's nuclear program as more worrisome than the 
crisis over North Korea's nuclear weapons. He has predicted 
that if Iran secures nuclear weapons, nonproliferation efforts 
may cease to be meaningful and a world of multiple nuclear 
centers will be created. And he has asked: what would the world 
look like if the terrorist bombs in London on July 7th had been 
nuclear and 100,000 people had been killed? Perhaps more 
poignant, Kissinger has said: I am not recommending military 
action against Iran, but I am recommending not excluding it.
    Today's hearing will focus on the possibility of a military 
strike against Iran. While the central reason for such a strike 
seems straightforward, to prevent this state-sponsored 
terrorism from acquiring nuclear weapons, the outcome of such a 
strike does not. So what would happen if the United States 
bombed Iran? The truth is, no one really knows for sure, just 
as no one really knows for sure what would happen if Iran 
acquired a nuclear weapon. Of course, none of us want either 
event to occur. But we must recognize the stakes are enormously 
high when nations like Iran espouse a philosophy that is 
irrational. They threaten the survival of their own population, 
as well as the rest of the world.
    These concerns are shared by the majority of the American 
people. When asked recently whether Iran poses a serious threat 
to the world, 85 percent of Americans answered yes. Dealing 
with terrorists leaves responsible leaders with stark choices 
that will have to be made to protect the American people and 
the rest of the world.
    But this hearing is about hypotheticals, so let us talk in 
hypotheticals for the moment. If the United States were to 
attack Iran's nuclear weapons facility, Iran would consider 
such an act an act of war and retaliate. This retaliation could 
come in the form of a strike against our allies, retaliation 
against United States and coalition forces in Iraq and 
Afghanistan and maybe even Europe, and possibly a wave of 
terrorist attacks against United States both at home and 
abroad. Perceptions of the United States would further 
deteriorate in the Middle East and in other Muslim countries 
around the world. The bottom line is, we would be at war with 
Iran, which would be devastating, because what the United 
States and our allies do not need right now is to open another 
front against a terrorist state.
    Many experts disagree how soon Iran could acquire a nuclear 
weapon. Some say in 5 years and others say 10. Whatever the 
time delay, there is little disagreement Iran is intent on 
acquiring the capability. And if Iran succeeds and builds a 
nuclear weapon, what then? The Middle East would become even 
more unstable, the rich oil region would be dominated by a 
terrorist state that has announced its intent to annihilate one 
of our staunchest allies, Israel. As Secretary Kissinger 
observed, other nations would want to acquire the capability, 
and nonproliferation would cease to be a coherent policy. 
Indeed, these are just some of the consequences of Iran's 
obtaining nuclear capability.
    Last week the Crown Prince of Bahrain said that the 
Iranians are seeking to develop nuclear arms, and called on 
world leaders to find a diplomatic solution. I agree with the 
Sheikh; the United States has an obligation to find a solution 
other than war, and we as Congress have an obligation to 
support the current administration and whatever the 
administration follows in their efforts to find this solution.
    But in the meantime, we cannot allow terrorist states to 
acquire the means to blackmail the entire world. So to return 
to Kissinger's insight, while we should not be recommending 
military action, we should be recommending not excluding it 
either. We welcome all our witnesses today and look forward to 
their testimony.
    Mr. Tierney. Thank you, Mr. Shays. We are fortunate to have 
with us this morning Colonel Lawrence Wilkerson, Colonel Samuel 
B. Gardiner, Dr. Paul Pillar, Ilan Berman and Lieutenant 
General Paul K. Van Riper.
    We are going to start with the testimony of Colonel Larry 
Wilkerson, who is the visiting Pamela C. Harriman professor of 
Government at the College of William and Mary, as well as 
professional lecturer in the honors program at George 
Washington University. His last positions in government were as 
Secretary of State Colin Powell's chief of staff from 2002 to 
2005 and associate director of the State Department's Policy 
Planning staff.
    Before serving at the State Department, Colonel Wilkerson 
served 31 years in the U.S. Army, including as Deputy Executive 
Officer to then-General Colin Powell when he commanded the U.S. 
Army Forces Command in 1989; Special Assistant to General 
Powell when he was chairman of the Joint Chiefs of Staff from 
1989 until 1993; and as Director and Deputy Director of the 
U.S. Marine Corps War College in Quantico, VA, from 1993 until 
1997.
    Colonel Wilkerson holds two advanced degrees; one in 
international relations and the other in national security 
studies. And before the Colonel starts, I want to invite 
anybody who wants to take their jacket off to do so. It's 
pretty warm in here with the lights in here.
    Mr. Shays. We are talking about witnesses as well.
    Mr. Tierney. Witnesses as well. And ask unanimous consent 
that Mr. McDermott, who is not a member of this particular 
panel, but who has joined us here today, be allowed to 
participate. Without objection, so ordered.
    Colonel Wilkerson we will be happy to hear your remarks.

STATEMENT OF COLONEL LAWRENCE B. WILKERSON, USA (RET.), FORMER 
 CHIEF OF STAFF AND SENIOR ADVISOR TO SECRETARY OF STATE COLIN 
 POWELL, FORMER SPECIAL ASSISTANT TO THE CHAIRMAN OF THE U.S. 
 JOINT CHIEFS OF STAFF, AND FORMER DIRECTOR OF THE U.S. MARINE 
                       CORPS WAR COLLEGE

    Colonel Wilkerson. Thank you Mr. Chairman, and thank you 
for having me here. And Ranking Member Shays and other members 
of the subcommittee, thank you.
    I would like to start and preface just by saying I am a 
soldier. That is the perspective I am going to be speaking 
from. I am a strategist. I was educated as a strategist. And 
that is an important distinction. Strategists aren't trained by 
instrument. They are educated. It is a very, very meaningful 
distinction as a matter of fact. And what I want to--the 
perspective I want to come from is that--you have my written 
testimony. I just want to focus on one aspect of it. That 
aspect of it is, let us assume political, diplomatic, 
informational, cultural and other instruments of our national 
power have failed and we do have to use military force. Despite 
the lack of a substantial and ready link component, because we 
wouldn't have one--it is tied down in Afghanistan and Iraq and 
elsewhere--what will be the consequences of using such force, 
because it would be limited to air and Naval power, perhaps 
complemented by a few Special Operating Forces to prepare us? 
That live purpose is the only ultimate objective I can conceive 
of, as Ranking Member Shays has pointed out, to use military 
force against Iran.
    The result of using such force in my view would be 
disastrous. I am a soldier. I am speaking from the intellect 
and the heart. Land-based air power coupled with sea-based air 
power and small Special Operating Forces deployed in Iran would 
conduct what I would call a network centric top campaign that 
is using high developed target maps that devastate the existing 
grids in Iran; railroad, air, electricity, gas, information, 
communications, commanding patrol and so forth. Or in a more 
limited way, these forces would concentrate, take out Iran's 
air defenses, as probably they could, and then do what damage 
they could do to the nuclear facilities that we are aware of or 
that we suspect.
    My question in both cases: widespread strikes and use of 
more focused strikes would be to what purpose? At best, the 
limited strike scenario would set back Iran's nuclear program a 
year or two, perhaps a little longer. More likely, it would 
spur the Iranians, as strategic bombing did the Germans in 
World War II, to round-the-clock, determined efforts that would 
swiftly make up the lost time, might even make the program even 
faster. We may recall that German production actually increased 
after massive bombing raids by the Allies in World War II. The 
more widespread strikes, while devastating--and they would be--
would solidify a nation of 70-plus million people, a great 
number of whom are under 35 years of age; a nation that is 
anything but solidified in its views right now, particularly 
amongst that age group. And the uniting factor would be 
nationalism and a visceral hatred for America. The ranks of the 
Revolutionary Guard would swell. Asymmetric warfare at a time, 
a place and with a means of Iran's choosing, not ours, would 
break out wherever U.S. forces were vulnerable, but 
particularly in Iraq, Qatar, Kuwait and elsewhere at a minimum.
    But at the end of the day, what would America have gained 
by doing this? My answer is very little, except that we would 
have fallen into one of military history's most common traps: 
we would have reinforced strategic failure, one of the oldest 
most consistent failures throughout military history. From the 
Persian to the British empires, there exist enough examples to 
give one pause. From Xerxes to Mark Anthony, from Napoleon to 
Hitler, from World War II to Vietnam and World War I, history 
is replete with leaders who simply could not say either 
tactically, operationally or strategically enough, and 
sacrificed more blood and treasure by adding to that failure. 
Unless we are prepared to invade Iran with strategic ground 
forces, thoroughly defeat the hundreds of thousands of 
guerrillas that we would most likely encounter, occupy the 
country for at least a decade or longer, more and deeper 
failure is the most likely consequence. That is the only 
conclusion as a strategist and as a military man that I can 
come to. Thank you.
    [The prepared statement of Colonel Wilkerson follows:]

    [GRAPHIC] [TIFF OMITTED] T1518.001
    
    [GRAPHIC] [TIFF OMITTED] T1518.002
    
    [GRAPHIC] [TIFF OMITTED] T1518.003
    
    [GRAPHIC] [TIFF OMITTED] T1518.004
    
    Mr. Tierney. Thank you, Colonel.
    For everybody's information, there is a vote scheduled and 
a motion to adjourn. There is a single vote on that. We are 
going to continue to keep the proceeding along. So if people 
want to go vote and come back, we will continue in place on 
that.
    Our next witness is Colonel Sam Gardiner, U.S. Air Force, 
retired. Colonel Gardiner is a war strategy scholar and former 
faculty member of the National War College, the Naval War 
College and the Air War College. Colonel Gardiner has designed 
and participated in numerous war game simulations involving 
Iran, including one we broadcast on CNN in early December.
    Colonel.

 STATEMENT OF COLONEL SAMUEL B. GARDINER, USAF (RET.), FORMER 
   FACULTY MEMBER OF THE NATIONAL WAR COLLEGE, THE NAVAL WAR 
                COLLEGE AND THE AIR WAR COLLEGE

    Colonel Gardiner. What I have is a net assessment. 
Essentially it is from the net. What I am going to say is 
nothing classified. I have told Iranians directly to their face 
that they need to fear the Americans will strike. What I am 
telling you, I have told them.
    This is the headline we want to avoid. The headline of the 
future in which a President is faced after a series of U.S. 
actions with a decision to go for regime change. He is faced 
with no other option.
    There are two military objectives we normally see set out 
when we talk about conducting a strike against Iran: punish the 
Iranians for terrorism. This is new. It has more importance 
than it did 6 months ago. The second, obviously, is to set back 
the nuclear program.
    Let me talk a little bit about targets and the likelihood 
of success. In the punishment category, obviously the 
Revolutionary Guard units come to the top of the fore. 
Interesting about the Revolutionary Guard units we don't hear 
much talked about is they are prepared for an air strike. They 
are heavily bunkered and heavily re-vetted. It would be very 
difficult to put punishment on them. This is the same unit, but 
spread out.
    The second option: go after the terrorist training camps. 
Not much infrastructure there, and not much density of 
personnel. Not a very good target. By assessment of the 
punishment option, here is what I would say after we got 
through with that: no serious damage done to the Guard units; 
the strikes on the terrorist training camps doesn't do any 
damage; Iran continues enrichment and doesn't change its view 
of the world.
    OK. Let us go after the nuclear facilities, is the other 
alternative. You need to understand the one big weapon that 
plays a role in this. This is the penetrating 5,000 bomb 
conventional weapon. The first target that comes to mind is the 
Natanz enrichment facility. This is the way it looked 5 years 
ago. The two halls will be buried with 2 meters of concrete, 18 
meters of dirt, 60 feet under ground. This is the way it looks 
today and the way the United States would have to target it, 
with this conventional penetrating weapon probably putting two 
weapons on top of each other.
    The next target would be the nuclear research facility at 
Esfahan. Interestingly, what is happening in Iran right now is, 
they are moving from just dig and cover to tunneling. It makes 
targeting much more difficult and harder for us to destroy even 
nuclear facilities now. This is the kind of targeting we would 
have to go on. Obviously, the heavy water facility in Iraq 
would be targeted. And again, what one finds is tunneling and 
making the targeting difficult.
    Here is the third, the final facility I am going to talk 
about, which is the missile test facility in Parchin where they 
also do weapons testing. Again, what you see is heavy tunneling 
to interfere with targeting. This is another interesting point 
about Parchin, and I raise this; I do not know the answer to 
this: they are more careful about protecting the facilities 
there than they are about protecting the nuclear facilities. I 
suspect it has to do with chemical weapons. I will mention that 
later.
    Bushehr would not be targeted. No reason to kill Russians. 
It is not important to the nuclear program.
    Here is my assessment after that. We can destroy 3 to 5 
years of construction. We know how long it took to build those. 
But the effect on the nuclear program is what Wilkerson said, 
we may slow it. As a strategist, I would say, you don't take 
military action when you don't know the outcome. It is very 
questionable.
    The next thing that comes to mind is, if you are going to 
strike the Iranians, then you got to make sure, this would be 
the argument, that you get their ability to retaliate so that 
they can't come back. These are the F-14s at Esfahan, the Alert 
F-14s. We want to strike those. More shelters and bunkers, 
heavily sheltered and bunkered Air Force. It could be 
destroyed. This is the main Naval base at Bandar Abbas, three 
Russian supplied Kilo submarines and a mini-submarine. Those 
would be targeted in this elimination of the retaliation 
capability. The missile patrol boats in Chabahr would be 
targeted. The Iranians have a series of anti-ship missiles. 
These are the probable locations. The anti-ship missiles 
include the old Silkworm as well as the C-805 that was used by 
Hezbollah to attack an Israeli ship. They are heavily bunkered. 
They are stored in bunkers. They have sites that are re-vetted 
when fire dropped. We would probably strike the missile launch 
areas, the same launch areas that the Iranians used during the 
Iraq-Iran war where they probably have some Shaab missiles. 
After all that happens and most of the aircraft would be 
destroyed, large Naval vessels would be destroyed, but we would 
be facing small boats, terrorists, chemical capabilities and 
some missiles.
    Let me talk about consequences. Iranians have a number of 
options. Little or no response, and this is an interesting one, 
I am going to talk a little bit about this because that is a 
powerful option, what I call the ``low DNA'' violent attacks; 
and then a broader response, no response, very interesting. And 
my metaphor is the Danish cartoon example in which the Middle 
East and even Europe became enraged by those cartoons. You will 
find the same thing happening here. Some governments might even 
be threatened by the severity of the reaction. And again, that 
is without any Iranian retaliation. We have said the Iranians 
are--if we attack them, according to the National Intelligence 
Estimate--like Iraq that we can expect a major improvement or 
increase in terrorists. We have said that there is a high 
likelihood that they would initiate attacks inside the United 
States. We would find we would be asked to escort ships in the 
Gulf. We would be asked during this process to provide 
additional missiles to Israeli and Gulf states. And the oil 
pipelines that are in Iraq would be vulnerable and we could 
very easily see that as being targeted. We would see additional 
infiltration into Iraq from Iran. And we would see additional 
U.S. casualties because of that. We could very well see more 
Naval mines in the Persian Gulf. Not a heavy mine capability, 
but just a few. We could see the Iranians use speed boats to 
threaten oil tankers. We could see insurance rates and oil 
prices jump. Most people talk about a spike, but it is 
important to remember that may not be in the Iranian interest. 
Recall, during the Iraq-Iran war, we actually had a price 
plateau. That is something that they would more likely want to 
see.
    The range of things they could do beyond that is broad and 
will probably depend on the severity of our strikes. But 
involved in this we have to understand is they have threatened 
attacks inside the United States. Remember, Iran has WMD now. 
This is not something we were talking about. They probably have 
this range of chemical capabilities. This special storage 
facility at Esfahan is probably where they store them.
    When we talk about Iran providing nuclear weapons to 
terrorists, I think we have to be able to answer the question: 
why haven't they given chemicals to terrorists? I can't answer 
that question, but that is an important question to answer. It 
brings me back to where I started. It is possible for a 
President to be put in a position where he has no options 
because the sequence of events where it is not just that our 
options aren't successful, but we are at a point where we have 
to do regime change because his options are no longer limited 
by the violent extreme war tactics.
    [The prepared statement of Colonel Gardiner follows:]

    [GRAPHIC] [TIFF OMITTED] T1518.005
    
    [GRAPHIC] [TIFF OMITTED] T1518.006
    
    [GRAPHIC] [TIFF OMITTED] T1518.007
    
    [GRAPHIC] [TIFF OMITTED] T1518.008
    
    [GRAPHIC] [TIFF OMITTED] T1518.009
    
    [GRAPHIC] [TIFF OMITTED] T1518.010
    
    [GRAPHIC] [TIFF OMITTED] T1518.011
    
    [GRAPHIC] [TIFF OMITTED] T1518.012
    
    [GRAPHIC] [TIFF OMITTED] T1518.013
    
    [GRAPHIC] [TIFF OMITTED] T1518.014
    
    [GRAPHIC] [TIFF OMITTED] T1518.015
    
    [GRAPHIC] [TIFF OMITTED] T1518.016
    
    [GRAPHIC] [TIFF OMITTED] T1518.017
    
    [GRAPHIC] [TIFF OMITTED] T1518.018
    
    [GRAPHIC] [TIFF OMITTED] T1518.019
    
    [GRAPHIC] [TIFF OMITTED] T1518.020
    
    [GRAPHIC] [TIFF OMITTED] T1518.021
    
    [GRAPHIC] [TIFF OMITTED] T1518.022
    
    [GRAPHIC] [TIFF OMITTED] T1518.023
    
    [GRAPHIC] [TIFF OMITTED] T1518.024
    
    [GRAPHIC] [TIFF OMITTED] T1518.025
    
    [GRAPHIC] [TIFF OMITTED] T1518.026
    
    [GRAPHIC] [TIFF OMITTED] T1518.027
    
    [GRAPHIC] [TIFF OMITTED] T1518.028
    
    [GRAPHIC] [TIFF OMITTED] T1518.029
    
    [GRAPHIC] [TIFF OMITTED] T1518.030
    
    [GRAPHIC] [TIFF OMITTED] T1518.031
    
    [GRAPHIC] [TIFF OMITTED] T1518.032
    
    [GRAPHIC] [TIFF OMITTED] T1518.033
    
    [GRAPHIC] [TIFF OMITTED] T1518.034
    
    [GRAPHIC] [TIFF OMITTED] T1518.035
    
    [GRAPHIC] [TIFF OMITTED] T1518.036
    
    [GRAPHIC] [TIFF OMITTED] T1518.037
    
    [GRAPHIC] [TIFF OMITTED] T1518.038
    
    [GRAPHIC] [TIFF OMITTED] T1518.039
    
    [GRAPHIC] [TIFF OMITTED] T1518.040
    
    [GRAPHIC] [TIFF OMITTED] T1518.041
    
    [GRAPHIC] [TIFF OMITTED] T1518.042
    
    [GRAPHIC] [TIFF OMITTED] T1518.043
    
    [GRAPHIC] [TIFF OMITTED] T1518.044
    
    [GRAPHIC] [TIFF OMITTED] T1518.045
    
    [GRAPHIC] [TIFF OMITTED] T1518.046
    
    [GRAPHIC] [TIFF OMITTED] T1518.047
    
    [GRAPHIC] [TIFF OMITTED] T1518.048
    
    [GRAPHIC] [TIFF OMITTED] T1518.049
    
    [GRAPHIC] [TIFF OMITTED] T1518.050
    
    [GRAPHIC] [TIFF OMITTED] T1518.051
    
    [GRAPHIC] [TIFF OMITTED] T1518.052
    
    [GRAPHIC] [TIFF OMITTED] T1518.053
    
    [GRAPHIC] [TIFF OMITTED] T1518.054
    
    [GRAPHIC] [TIFF OMITTED] T1518.055
    
    [GRAPHIC] [TIFF OMITTED] T1518.056
    
    [GRAPHIC] [TIFF OMITTED] T1518.057
    
    Mr. Tierney. Thank you very much, Colonel.
    Our next witness is Dr. Paul Pillar, who served for 28 
years in the Central Intelligence Agency, including as National 
Intelligence Officer for the Near East and South Asia from 2000 
to 2005, and as Deputy Director of the CIA Counterterrorism 
Center. He holds a Master's degree and a Ph.D. from Princeton 
University, and currently serves as a visiting professor of the 
Security Studies Program at Georgetown University.
    Mr. Pillar.

 STATEMENT OF PAUL PILLAR, PH.D., FORMER NATIONAL INTELLIGENCE 
OFFICER FOR THE NEAR EAST AND SOUTH ASIA FROM 2000 TO 2005 AND 
       DEPUTY DIRECTOR OF THE CIA COUNTERTERRORISM CENTER

    Mr. Pillar. Thank you, Mr. Chairman and members of the 
committee.
    As Mr. Shays correctly noted in his opening comments, no 
one can accurately predict exactly what the consequences of any 
U.S. military strike on Iran would be. But in my judgment, 
there are good grounds for assessing that the risk of major 
damage to U.S. interests from any such action are substantial 
and that the probability that such damage would occur is high.
    I am going to hit highlights from my written statement in 
four areas. The first is the likely Iranian regime's response. 
A U.S. attack probably would make acquisition of nuclear weapon 
capability appear all the more attractive and even necessary to 
Iranian leaders and would motivate them to work even more 
assiduously to acquire such a capability sooner rather than 
later. One of the likely principal reasons for Iranian interest 
in such a weapons capability is as a deterrent against external 
threats, which in Iranian eyes include first and foremost the 
United States. A U.S. military attack therefore would be for 
Iranians the most dramatic possible demonstration of a need for 
such a deterrent. An instructive lesson, in addition to what 
Colonel Wilkerson mentioned about World War II, was Iraq's 
response to the Israeli air strike in 1981 that destroyed the 
Iraqi nuclear reactor of Osirak. That response was not to give 
up nuclear efforts but to redouble them.
    Iranians, as you mentioned, Mr. Chairman, and Mr. Shays 
mentioned as well, would consider any military attack on their 
territory as an act of war, and they would respond in times and 
places of their own choosing. Colonel Gardiner has already 
covered a whole range of plausible possibilities. I would just 
highlight two in particular. One would be responding inside 
Iraq where Iran over the past 4 years has assiduously 
cultivated influence with a wide variety of Iraqi groups. So 
far, Iran has not fully exploited its position in Iraq to make 
maximum trouble for the United States. But following a U.S. 
military attack on Iran, Iran would have less reason than it 
does now to exercise any restraint at all. The other likely 
form of asymmetric Iranian response would be international 
terrorists, including possibly attacks to the U.S. homeland as 
well as against U.S. targets overseas. Iran retains a 
formidable terrorist capability in the form of its own state 
agents, as well as the help from clients such as Lebanese 
Hezbollah. In recent years, it has held that capability mostly 
in reserve. But a U.S. military strike against the Iranian 
homeland would be just the sort of contingency for which this 
reserve capability has been retained.
    As for other political consequences inside Iran, any U.S. 
military strike would be a boon to an Iranian hardliner such as 
President Mahmoud Ahmadinejad, whose political strength rests 
in large part on a message of threat from, and confrontation 
with, the United States. A U.S. attack would also make it 
substantially more difficult for Iranian leaders of any 
political strength to do anything that could be interpreted as 
a concession or a positive gesture toward the United States.
    And I might add finally that an attack could also be 
expected to affect long-term attitudes of almost all Iranians. 
Just as Iranians still today, more than half a century later, 
refer resentfully to the U.S.-instigated coup that overthrew a 
populous Iranian prime minister in 1953, a military attack, 
which of course would be an even more open and violent act of 
hostility, would be a new source of long-term resentment 
helping to poison relations between Iran and Washington for 
generations.
    Turning to the surrounding region and repercussions that 
would extend beyond the Middle East to the rest of the world, 
most governments in the Middle East would oppose U.S. military 
action against Iran, both in their public rhetoric and in their 
privately exposed sentiment. The Gulf Arabs, for example, do 
not focus their attention on the distant possibility of an 
Iranian nuclear weapon. Iran has conventional superiority over 
them anyway. They worry more about such things as resistance 
among their own Shia minorities. And they would also have to 
worry about how their conspicuous ties with the United States 
would work to their disadvantage in the event of another 
intensely unpopular U.S. military operation in the region.
    And intensely popular indeed would be not just in the Gulf 
but elsewhere through the Middle East. Like the war in Iraq, it 
would be widely viewed by many people in the region as an 
assault by the United States, the leader of Judeo-Christian 
West, against Muslims. This perspective toward the Iraq war 
would increase the likelihood that an attack on Iran would be 
seen similarly.
    When you look at repercussions going beyond the Middle 
East, again a look at the Iraq war gives us clues as to the 
likely impact of an attack on Iran. Much of the world would 
view such an attack, like they view the operation of Iraq, as 
an unprovoked and unjustified exertion of raw power by the 
world's only super power. And given particularly the unhappy 
experience we had with allegations of weapons programs in Iraq, 
as well as U.S. tolerance of nuclear weapons in the hands of 
ourselves and our allies, many would see the U.S. action as a 
blow not against proliferation of weapons, but against a Muslim 
country with a regime that Washington doesn't happen to like. 
So the dominant global consequence in my judgment, especially 
in the broader Muslim world, would be an increase in anti-
Americanism which has been documented in so many polls so far 
over the last 4 or 5 years with regard to the impact of the 
Iraq war. Another U.S. military offensive in the Middle East 
would strengthen and lengthen this unfortunate trend.
    All of this is speculative and hypothetical, of course, but 
in weighing the risks of an action as drastic as a military 
attack on another state, we cannot afford to limit ourselves to 
only what is readily measurable. Some of the consequences of 
such an action would be no less serious and no less detrimental 
to U.S. interests, even if they can only be inferred and not 
forecast with certainty and precision. And in that regard, I 
would note that any hope for benefit of such action also cannot 
be forecast with certainty or precision either.
    Thank you, Mr. Chairman. I look forward to your questions.
    [The prepared statement of Mr. Pillar follows:]

    [GRAPHIC] [TIFF OMITTED] T1518.058
    
    [GRAPHIC] [TIFF OMITTED] T1518.059
    
    [GRAPHIC] [TIFF OMITTED] T1518.060
    
    [GRAPHIC] [TIFF OMITTED] T1518.061
    
    [GRAPHIC] [TIFF OMITTED] T1518.062
    
    [GRAPHIC] [TIFF OMITTED] T1518.063
    
    [GRAPHIC] [TIFF OMITTED] T1518.064
    
    [GRAPHIC] [TIFF OMITTED] T1518.065
    
    Mr. Tierney. Thank you, Doctor.
    Our next witness is Mr. Ilan Berman, who is the vice 
president for policy of the American Foreign Policy Council. He 
is a member of the Committee on Present Danger and author of, 
``Tehran Rising: Iran's challenge to the United States.'' Mr. 
Berman is a consultant for both the Pentagon and the Central 
Intelligence Agency.
    Mr. Berman.

  STATEMENT OF ILAN BERMAN, VICE PRESIDENT, POLICY, AMERICAN 
                     FOREIGN POLICY COUNCIL

    Mr. Berman. Thank you, Mr. Chairman. And let me take the 
opportunity before I start to thank you and to thank 
Congressman Shays for the opportunity to be here. You have my 
written statement, and I would like to submit it for the 
record.
    I just want to walk through a couple of points that I made 
therein. From the outset, I think I should be clear: I am not 
here to advocate in favor of a military option with regard to 
Iran. Personally, I think that such an option, if it is 
attempted, would have tremendous consequences, adverse 
consequences, for the United States, for American interests and 
for American allies in the region. In part that is because 
there are a lot of things that we don't know or can predict, 
reasonably predict, as Dr. Pillar said. The first is the 
question of knowledge gaps with regard to the Iranian nuclear 
program. We know that, over the past two decades, the Iranian 
regime has placed a premium on building a massive national 
nuclear endeavor, pursuing both uranium enrichment and 
plutonium separation. But there is a great deal of actual 
intelligence that we still don't know about that program. And 
as a result of that, as a practical matter, this means that the 
idea of denuclearization, complete elimination of the Iranian 
nuclear capability simply is not on the table. Rather, the best 
that we can hope for, the best that we can hope for is to delay 
and to defer Iran's nuclearization but not to derail that 
project completely.
    The second issue that needs to be taken into account 
relates to potential responses on the part of the Iranian 
regime. And we heard from the previous witnesses a rather 
exhaustive list of what could happen. I would only add my voice 
to that list and say that, with regard to Iran's capability to 
project asymmetric harm on U.S. troops and coalition partners, 
with regard to Iran's ability to increase its support, ratchet 
up its support for terrorist groups as well as Iran's strategic 
location atop the Strait of Hormuz, this is a pretty dramatic 
countermeasure on the part of the Iranian regime that can be 
harnessed.
    The third, and in my estimation the most decisive, 
counterindication for military action actually has to do with 
the situation within Iran itself. By all indications, the 
Iranian regime is wildly unpopular, polling at a very, very low 
success rate and popularity rate. But the nuclear issue is not. 
The nuclear issue is actually a very popular issue. And it is 
in fact a popularity that transcends both ethnic and sectarian 
lines in Iran. And this means, as a practical matter, that even 
though this is an issue that has essentially been harnessed by 
the regime--it is a regime initiative, not a populous 
initiative--it is one that is both supported by ordinary 
Iranians and by regime hardliners, although for very different 
reasons. And as a result, this means that external action on 
the part of the United States or another country would be seen 
as an unacceptable external intrusion. It would harden domestic 
opinion in support of this program. And it would actually have 
the practical ancillary effect of strengthening rather than 
weakening the regime's hold on power, which I think we can all 
agree is probably not the desired outcome.
    But I think it is important to point out here that the 
elephant in the room is the character of the Iranian regime 
itself. Nuclear technology is not inherently good or evil. Its 
ultimate disposition rests upon the character of the regime 
that will wield it, and what it plans to do with it. And we 
know that the Islamic Republic is the world's leading state 
sponsor of terrorism, and its intentions are, to put it 
plainly, malignant. And this is why the White House, this White 
House, as well as politicians from both sides of the aisle, 
have spent a lot of time insisting that one of the world's most 
dangerous regimes should not be allowed to acquire the world's 
most dangerous weapon. And, by the way, they are joined by a 
growing slice of the American public in this viewpoint. The 
latest poll by Zogby International released just last week 
suggested that 52 percent of Americans now support the idea of 
military action to prevent Iran from going nuclear, although 
the reasons for their conclusion that this is a good idea would 
vary.
    I would point out that there is a number of issues that 
need to be raised when we think about the ultimate disposition 
of the military option and about whether or not to take it off 
the table. Personally, I believe that it cannot be taken off 
the table for a number of reasons. First of all, because 
without the credible threat of the use of force, the United 
States will undermine the other economic and diplomatic 
strategies that it is currently pursuing. Simply put, Iran is 
not likely to bend to sanctions if it thinks that all it has to 
do is weather the sanctions, but then there is nothing else 
coming down the pike. And as a result, the regime will become 
convinced that there will be no consequences to its continued 
intransigence. So this is not a constructive position for us to 
take.
    Without the credible threat of the use of force on the part 
of the United States, you also have what amounts to a dangerous 
domino effect that will begin to take shape in the region, 
indeed is already taking shape in the region, in which a 
growing number of Iran's neighbors feel compelled to pursue a 
nuclear program of their own in an effort to counterbalance the 
emerging Iranian bomb. And the end result of this, I want to be 
clear, will be not one nuclear Iran but many.
    Also, without the credible threat of the use of force, the 
United States will need to rely upon a deeply flawed deterrence 
paradigm for dealing with the Iranian regime. This is a 
paradigm that fails to account, at least in its current state, 
for communication gaps between Washington and Tehran; fails to 
account for a lack of understanding of Iranian strategic 
intentions; and, most of all, fails to account for this new and 
deeply troubling messianic discourse that is beginning to 
emerge on the part of at least one segment of the Iranian 
political system. And I would argue that in particular, all 
these elements, but that last one in particular makes Iran 
undeterrable in the conventional sense of the word, if you are 
a fan of game theory and deterrence theory like I am.
    And the last point here is that, without the credible 
threat of the use of force on the part of the United States, 
Iran will soon be able to extend a nuclear umbrella to 
terrorist groups that it supports. And the practical 
consequence of this will be a vastly greater reach and wake for 
groups like Hezbollah and the threat that they and others can 
pose to America, to American forces, and to American allies. 
And at the end of the day, it is clear that the military 
options for dealing with Iran is at best deeply flawed. At 
worst, it is dangerous. Any calculus of a potential cost, 
however, I believe, needs to be weighed against thelikely 
result of us doing nothing. And those results in my estimation 
are the emergence of a new regional order in the Middle East 
dominated by an atomic Islamic republic. Thank you.
    [The prepared statement of Mr. Berman follows:]

    [GRAPHIC] [TIFF OMITTED] T1518.066
    
    [GRAPHIC] [TIFF OMITTED] T1518.067
    
    [GRAPHIC] [TIFF OMITTED] T1518.068
    
    [GRAPHIC] [TIFF OMITTED] T1518.069
    
    [GRAPHIC] [TIFF OMITTED] T1518.070
    
    Mr. Tierney. Thank you, Mr. Berman.
    Our final witness is General Paul Van Riper, who served 
with distinction for 41 years in the Marine Corps, including as 
Commander General with the U.S. Marine Corps Combat Development 
Command and the first president of the Marine Corps University 
and the Commanding General of the Second Marine Division. 
General Van Riper received numerous decorations, including the 
Silver Star with Gold Star, Bronze Star with Combat V, Purple 
Heart, and the Legion of Merit.
    General, I have to say, I read all of your testimony and 
found it incredibly informative and quite a history on that. I 
know you won't be able to read all of that into the record, but 
I hope people take the opportunity to read it on their own and 
go to the Web site and whatever because it was incredibly 
informative. We look forward to your remarks.

STATEMENT OF LT. GENERAL PAUL K. VAN RIPER, USMC (RET.), FORMER 
COMMANDING GENERAL OF THE U.S. MARINE CORPS COMBAT DEVELOPMENT 
  COMMAND, FIRST PRESIDENT OF THE MARINE CORPS UNIVERSITY AND 
        COMMANDING GENERAL OF THE SECOND MARINE DIVISION

    General Van Riper. Thank you, Mr. Chairman, members of the 
subcommittee.
    I welcome this opportunity to speak with you today. Your 
effort to widen public discussion about the direction of our 
Nation's defense policy is, in my estimation, long overdue. I 
am going to summarize the three issues which I discuss in the 
longer paper, but encourage the Members, as well as those 
outside, to look at the extracted material that I include in 
the third section which speaks to a different way or a 
different method of attacking difficult national security 
problems.
    Let me speak first to a national discourse. Americans need 
to know that war is much too serious a matter to leave to the 
generals or for that matter the senior elected officials. The 
decision to wage war and the manner in which it is conducted 
must be the concern of every citizen. Today, I do not detect 
the same wide interest in issues of national security among our 
citizens as we have seen in the past. Someone recently 
observed, and I think correctly: The military is at war; the 
Nation is at the mall. We must reverse this indifference. Only 
through open and candid discussion can we develop better 
national defense policies.
    To my second topic, developing these national security 
strategies, if we truly are in a global war against radical 
Islamic insurgents, and I am convinced we are, we must think in 
terms of a global strategy. We must view the conflicts in 
Afghanistan and Iraq and the potential for conflicts in such 
trouble spots as the Horn of Africa, Southeast Asia and Iran as 
part of our global concerns. Thus the United States requires a 
well thought out and generally understood strategy for the 
ongoing worldwide war. Let me note, the administration speaks 
of a global war on terrorism. Terrorism along with global 
warfare is simply a method. What we have is a global 
insurgency. We now have so many national strategies that our 
efforts are diffused, some might even say confused. One 
contemporary source shows nearly 30 national strategies. The 
public is largely unaware of all these documents. But if they 
were, they would find a bewildered array of policies, goals and 
objectives. Even as a professional soldier, many of these 
individual strategies perplex me. In the totality, they are 
beyond my comprehension. The story of how we arrived at today's 
sad state of affairs is important to understanding how we might 
improve our situation, especially when there is talk of war in 
Iran. If there is time during the question and answer portion 
of the session, I would like to outline that story for members 
of the committee. In one sentence, I am convinced that the 
advancement of any number of non-ideas over the past 15 years 
undermined much of the conceptual work done after the Vietnam 
war, and directly contributed to the faulty decisionmaking 
leading up to the invasion of Iraq.
    My third issue, we need a new approach to tackling 
difficult national security problems. America is a nation 
filled with problem solvers who seem to favor analytical or 
engineering methods. An analytical approach is a powerful one 
for those difficulties whose underlying logic will organize a 
system that is linear and structurally complex. It is 
inadequate for such a class of problems, and Iran would 
certainly fit this, whose underlying logic or organizing system 
is dynamic, nonlinear, interactively complex or, as some 
literature refers to them, working problems. Interactions of 
these sorts of systems can and often do produce unanticipated 
and disproportionate results. What leader could imagine in June 
1914 the two pistol shots fired in Sarajevo would set in motion 
all of the events leading up to the horrors of the First World 
War? To understand these complex problems, we ought to grasp 
that taking action in national security settings frequently 
creates multiple reactions that for any practical purpose are 
unknowable beforehand. Appreciating this, our Nation's leaders 
should be more humble when forecasting the results of specific 
actions in the international arena. Certainly this should be 
the case when we contemplate confronting Iran or any other 
nation with military force.
    Until we undertake a discourse about the contemporary U.S.-
Iranian situation that includes authorities from many fields, I 
will remain unconvinced that any projection about the effects 
of military action are anything other than conjecture. The 
chairman's opening testimony and this subcommittee's meeting on 
October 30, 2007, serve as an excellent example of how to begin 
to grapple with the complex problems presented by Iran. I urge 
the subcommittee members to continue to view the current 
situation with Iran as a wicked problem that is interactively 
complex. If the legislative and executive branches would engage 
in a widened discourse on this vital issue, I believe it would 
see American Government at its finest. Certainly this is a 
course of action that every American would want. Thank you.
    [The prepared statement of General Van Riper follows:]

    [GRAPHIC] [TIFF OMITTED] T1518.071
    
    [GRAPHIC] [TIFF OMITTED] T1518.072
    
    [GRAPHIC] [TIFF OMITTED] T1518.073
    
    [GRAPHIC] [TIFF OMITTED] T1518.074
    
    [GRAPHIC] [TIFF OMITTED] T1518.075
    
    [GRAPHIC] [TIFF OMITTED] T1518.076
    
    [GRAPHIC] [TIFF OMITTED] T1518.077
    
    [GRAPHIC] [TIFF OMITTED] T1518.078
    
    [GRAPHIC] [TIFF OMITTED] T1518.079
    
    [GRAPHIC] [TIFF OMITTED] T1518.080
    
    [GRAPHIC] [TIFF OMITTED] T1518.081
    
    [GRAPHIC] [TIFF OMITTED] T1518.082
    
    [GRAPHIC] [TIFF OMITTED] T1518.083
    
    [GRAPHIC] [TIFF OMITTED] T1518.084
    
    [GRAPHIC] [TIFF OMITTED] T1518.085
    
    [GRAPHIC] [TIFF OMITTED] T1518.086
    
    Mr. Tierney. Thank you very much. We really shouldn't 
applaud. All the witnesses have done an excellent job in 
sharing with us their information on that, and we spent a lot 
of time doing that. We do appreciate it.
    There is another series of votes, as you heard the alarm 
going off, two votes in fact. I thought what I might do is ask 
my 5 minutes of questions here, and then we will take a little 
break, come back and others can vote, and then we will do that 
after. But we will suspend after that.
    Let me just start by asking generally the panel, I think we 
can assume that neither Iran or the rest of the world is 
unintelligent and uninformed, and they are all pretty much 
aware of what the U.S. military capabilities are. Given that 
fact, I think there is a question as to what value is added to 
any diplomatic or other efforts we might make to resolve these 
issues by continuing very loudly to rattle the saber and 
heightening intensity about rhetoric about the military option. 
Anybody care to respond to that?
    Dr. Pillar.
    Mr. Pillar. Mr. Chairman, in my judgment, it works to the 
detriment of the diplomacy in a number of respects. That is to 
say, it makes it less likely the sanctions will work. No. 1, it 
makes a nuclear deterrent seem all the more worth striving for 
in the eyes of the Iranians. No. 2, it helps the political 
position of hardliners. No. 3, it makes all Iranian leaders of 
whatever political stripe find it politically more difficult to 
do anything that makes it look like they are making nice toward 
the United States. And finally, it cements the view that, I am 
afraid, too many Iranian leaders already have, that there is 
simply no hope of a better relationship with the United States, 
even if they did improve their behavior on nuclear weapons, 
Iraq or anything else. So it detracts from the diplomacy. It 
does not enhance it.
    Colonel Gardiner. I just had one thing. I think the thing 
that they are concerned about is not the military instrument 
but the fact that they believe it means regime change. I hear 
this from Iranians a lot. What we need to take off the table is 
regime change, which we have not taken off the table.
    Mr. Tierney. Let me ask another question. What do we make--
and, Colonel Gardiner, you mentioned this in your remarks--that 
the Iranians presumably already have weapons of mass 
destruction and biological and chemical agents? What do the 
members of the panel make of the fact that they never shared 
those, to our knowledge, with any terrorist to date, and how 
does that line up with a fear that they might share nuclear 
materials with them?
    General, do you want to start, and we will move from right 
to left.
    General Van Riper. Mr. Chairman, I have no special 
expertise on Iran or the Iranian situation, though I have 
played a red commander in a country very similar to that. I 
think it is something we need to always fear. But I don't think 
it calls, at this point, for any serious talk about going to 
war.
    Mr. Tierney. Mr. Berman.
    Mr. Berman. By way of explanation, I think it is worth 
remembering a historical anecdote from the recent past. In 
September 2005, about a month after Mahmoud Ahmadinejad was 
elected essentially to the Iranian Presidency, he addressed the 
General Assembly in New York. And most of you may remember this 
as the speech in which he talked about the fact that he was 
surrounded by a green light and nobody blinked for half an 
hour. The speech that I was more interested in was the speech 
that he gave immediately afterwards. And in that discussion, he 
said, yes, my government, my country is pursuing this 
technology, nuclear technology, and not only that, but we stand 
ready to share it with any and all comers in the Islamic world. 
Just to be clear, proliferation is a declaratory state policy.
    Mr. Tierney. That is Mr. Ahmadinejad's comment, not 
necessarily state policy. If you understand the complexities of 
the Iranian political structure, I think it is very likely two 
different things.
    Mr. Berman. Well, that is certainly true. I would say that 
if he had his way, and there is an awful lot of tea reading 
going on about his exact place now in the hierarchy, I would 
certainly make the argument that he is less of a marginal 
player than his predecessor in the decisionmaking structure. 
But that is obviously for the experts to decide. I would say 
only that there is great merit to taking statements like that 
at their word, especially because the real center of gravity in 
the Iranian political system, Supreme Leader Ali Khamenei, 
actually did not say that those comments were out of line or 
that they were out of step. He actually confirmed them at a 
later discussion, a later time. So I think, on that issue, 
there is probably more consonance than dissidence within the 
Iranian political spectrum. It bears taking them seriously.
    Mr. Tierney. Thank you. Dr. Pillar, why are you worried 
about them having the biological and chemical if that is a 
concern?
    Mr. Pillar. We should be careful to distinguish between the 
rhetorical and what is actually in the self-interest of the 
regime. I would note that not only has Iran not passed any of 
these unconventional weapons to clients in terrorist groups, 
but there is no known incidence of any state passing any kind 
of unconventional weapons, weapons of mass destruction, to a 
so-called terrorist client, even though this is what we talk 
about lots and we seem to fear quite a bit. And there is a 
substantial record on this, including most of the history of 
the Soviet Union, which of course had radical clients, and they 
had all brands of unconventional weapons. The reason is, when 
you ask, what would be the interest of such a regime to pass 
some such weapons to another group where they would lose 
control, the interest simply isn't there. It is all 
disadvantage rather than advantage. They lose control. And if 
they were ever used, a group that is known to be a client of 
Iran, say Lebanese Hezbollah, would automatically be assumed by 
Washington and everybody else that they would be acting on 
Iran's behalf, so there is simply no advantage to it.
    Mr. Tierney. Colonel, do you have something you want to add 
to that?
    Colonel Wilkerson. I would just say two things: Rational 
leaders. We are not talking about Ahmadinejad; we are talking 
about Khamenei and Rafsanjani, the Council in general; and two, 
deterrence, it works.
    Mr. Tierney. Thank you. We are going to stand adjourned for 
a couple of minutes. And again, I thank you for your 
indulgence.
    The subcommittee is now back in session. Thank you again 
for your indulgence.
    I'm told that we have at least an hour before the next 
vote. We'll go to Mr. Yarmuth for your questions.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I was curious as to what--I think you may have all heard 
that the military options would lead to some rather dramatic 
repercussions around the world. In your experience, what do you 
think the odds are that those in the decisionmaking positions 
in the administration understand what you understand?
    Colonel Wilkerson. I'll take a shot at that, because I 
think I can probably differ with some of the people here at the 
table, having been somewhat recently in the discussion.
    I don't think they have any plan whatsoever to use force. I 
think the rhetoric you're hearing now, the hard noises, if you 
will, is designed primarily to try to regain some leverage vis-
a-vis Tehran. I think Dr. Rice eventually has her orders to do 
something along the diplomatic track that makes it different, 
and we're just trying to regain some leverage before we do 
that.
    Whether that's the right thing, I don't know; and it 
presupposes that we will remove this stipulation that they 
cease enriching or any activities even resembling before we 
come to the table makes a big difference. Because if we 
haven't, then anything she might embark on is useless.
    Mr. Yarmuth. Other opinions?
    And, actually, I want to know--I'm assuming they know what 
you have just said and understand all of these potential 
outcomes. Although, in terms of the Iraqi experience, it 
doesn't indicate that they particularly were aware.
    Colonel Gardiner. It's difficult to answer, but I'll try it 
anyway.
    It's very difficult in the heat of decisionmaking--and I 
say this from watching people make decisions even in the 
hypothetical situation of war games--to look at second- and 
third-order of consequences. I can promise you I can reproduce 
bad decisionmaking very easily by putting people under pressure 
and giving them a complex problem like Iran, or giving them a 
situation where you see some Americans have died, what do we 
do? So there's a real dilemma as security issues become more 
complex that we find ways for decisionmakers to bring sort of 
the second and third order of consequences into their 
decisionmaking.
    Mr. Pillar. Mr. Yarmuth, rather than comment on that, 
because you've correctly noted the recent exposure to Iraq 
should not give us a lot of encouragement to assume that 
certain things are borne in line by decisionmakers--although I 
suppose the silver lining in that particular cloud is, given 
the recency of the unhappy Iraq experience, all of us--Members 
of Congress, the President and presumably senior people in the 
administration--are a little more attuned to these things.
    But just one other comment to follow on to Colonel 
Gardiner's comments. We haven't really addressed yet in this 
session directly what I think is one of the main hazards that 
we face in this climate of extremely tense relations between 
the United States and Iran, and that is a military clash 
breaking out inadvertently, as escalation from some incident, 
even if neither Tehran nor Washington has planned it in 
advance. And it is in those situations that the point that Sam 
Gardiner made about not bringing to bear some of the secondary 
and tertiary consequences you're likely to see.
    Mr. Yarmuth. If either of you two would want to elaborate 
on that, that's fine. Yes, General?
    General Van Riper. Sir, I take exception to what my 
professional colleague, Colonel Gardiner, says about second- 
and third-order effects. This is what I tried to include in my 
written testimony. This is typical, I believe, of American 
decisionmaking, that is, to think that there's any ability to 
trace these effects.
    I normally use a very simple example to illustrate what I'm 
talking about in these non-linear systems, anytime you're in an 
interactively complex non-linear system from a physics sense, 
and I'll try to illustrate. If you took a bounded problem, 
which is a chess board, opening moves, there are 400 potential 
opening moves. At the second move, it's 72,000 potential moves. 
It then goes in the third to 9 million, then to some 315 
billion, and all the moves on the board exceeds the number of 
atoms in the universe.
    So the hubris that even in war games or in discussions that 
we have any real idea of what's going to happen in second- or 
third-order effects, the best metaphor for thinking about this 
is not like the machinery, like what happens if we have a 
problem with an airplane, but an ecology we really don't--which 
we don't understand.
    The more we study an ecological system, the more likely we 
are to do something in the positive. I would say what happened 
in the case of Iraq, there was an assertion that if we put 
energy into the system in terms of invasion, it would be all a 
happy outcome. We did not understand that system of the Middle 
East.
    And what I would urge is the only way you get to the inside 
in these problems is through a wide discourse with people with 
great and varying backgrounds, to try to first frame the 
problem, what is the problem. We've narrowed it here this 
afternoon to nuclear weapons. That's a pretty narrow view of 
it, and in even some of the testimony that's been given by 
witnesses it comes down to an either/or. I think we've got to 
widen this system we're looking at and have a wider discourse 
to get to the real issues.
    Mr. Yarmuth. May I just followup real quickly, Mr. 
Chairman, and just ask, where does that go on? Is that type of 
thinking and analysis typical of what goes on in the White 
House or the Defense Department, any White House or Defense 
Department?
    General Van Riper. I'm obviously not privileged to know 
what happens in those locations. I think as we look at our 
history, certainly in the early stage of the cold war, there 
were these sorts of discussions, both academic, those from the 
political arena, military, economists, historians, all brought 
together to wrestle with these problems. And it's what happens, 
it's in the discourse you begin to understand the logic of the 
problem; and until you understand the logic, there is no 
counter-logic, i.e., no answers. They're mere assertions.
    And that's what I think we're seeing. We're seeing mere 
assertions. If I do X or Y, this is the likely outcome, or this 
is the risk. Not so.
    Mr. Yarmuth. Thank you, Mr. Chairman.
    Mr. Tierney. Thank you, General. Thank you, Mr. Yarmuth.
    Mr. Hodes, you're recognized for 5 minutes.
    Mr. Hodes. Thank you, Mr. Chairman. I'm going to pass it 
this time.
    Mr. Tierney. Ms. McCollum, you're recognized for 5 minutes.
    Ms. McCollum. Thank you, Mr. Chair.
    I want to take this discussion that we're having--I want to 
take this discussion and just get into it a little deeper.
    So a lot of us feel it's very likely that some minor 
skirmish or event could cause military conflict to escalate 
into something much broader. So there might not even be time 
for the Congress to debate before this administration or any 
administration would react to events on the field.
    But this environment that we're in currently right now is--
it's very harsh, and the rhetoric is very, very heated. So any 
minor skirmish, taking the rhetoric with it, I see the 
escalation happening potentially very, very quickly, and it's 
very worrisome.
    So under what instances do you think we might see something 
escalate so that we could be prepared? I mean, the whole issue 
with the Iranian Guard comes up quite a bit, with them 
supplying weapons or them crossing the borders, but do you 
know--I mean, have we put circuit breakers in place?
    You talked about the cold war. I mean, there were 
opportunities for governments to talk to each other. Are there 
circuit breakers in there so that we could stop an incident 
from escalating out of control? Do we have any diplomatic back 
channels? And I'd like to hear a little bit more about how you 
think the State Department and the Pentagon can anticipate the 
threat and try to work to get ahead of it, to set up some of 
these safeguards and back channels.
    Then the other incident that could happen is the Nation of 
Israel has talked about leaving all of its options on the table 
with Iran. What would our reaction be to that? What should our 
reaction to that be in order to keep being drawn in and to work 
with Israel to keep them from being drawn in to raising the 
confrontational dilemma there?
    Thank you.
    Colonel Wilkerson. I'll be brief. I just want to--back to 
your question, Mr. Yarmuth, the untoward incident occurring is 
also a concern of mine; and I think the circuit breaker we have 
in place, the best circuit breaker is Admiral William J. 
Fallon, ``Fox'' Fallon. I think he's imbued with all of the 
possibilities that might happen in the Persian Gulf region; and 
I think his Commander's vision out to his naval forces, who are 
the forces in proximity most apt to start something outside of 
Iraq, is just that: to avoid it, to avoid it, to avoid it. We 
don't want 15 British sailors to be replicated with 15 American 
sailors or whatever.
    That said, I'm still very concerned about the proximity of 
forces, as I'm sure he is. It probably keeps him up at night 
thinking about how close they are and how an event like you 
were just describing could take place and be across its belly.
    I take some confidence from the fact I do not believe the 
Vice President is in charge of national security policy 
anymore. I believe others are. The Vice President is still a 
very influential voice vis-a-vis those policies, but I don't 
believe that, as in the first administration, he's basically in 
charge of them. And so that gives me some confidence that 
military commanders, Secretary Gates and others, will take the 
kinds of actions that are necessary to tamp something like this 
down fairly swiftly and, even more importantly, to prevent it 
from happening in the first place.
    Mr. Berman. If I may, I think you hit upon something that's 
critically important here, which is sort of where are the most 
likely flash points. We've had a discussion now for about an 
hour and a half of the question of the nuclear program and is 
that a casus belli and what can we do.
    I happen to believe that Iranian involvement in Iraq, in 
operation against Coalition forces in Iraq, is the most 
immediate place where the rubber meets the road, where there's 
a potential for a crisis, particularly because of the reports 
that I hear from Coalition commanders, from combatant 
commanders about the degree of Iranian involvement in the 
funding of both Shi'ite and Sunni militias active now against 
the Coalition.
    My recommendation would be to say that there is much work 
that still needs to be done to forge a serious 
counterinsurgency strategy, not simply against the Sunni 
insurgency as we've done, and discussed, and debated, but also 
about Iranian infiltration into Iraq; and that, actually, if 
you're talking about circuit breakers, has the ability to 
contain a skirmish if it does come out, and prevent it from 
expanding into a full-blown conflict.
    Mr. Pillar. Ms. McCollum, if I can comment on both parts of 
your question and, one, with regard to circuit breakers, 
although I'm happy to have someone like Admiral Fallon as the 
internal circuit breaker in our government, I think your 
question implies partly an argument for dialog and engagement 
with the Iranians; and if we can't have something as full-blown 
as the hotline that we did with Moscow for years and years, at 
least talking to them beyond the extremely limited talks we've 
had between Ambassador Crocker and his counterpart in Iraq 
would be one way to get a circuit breaker.
    On your second question, with regard to what Israel might 
do, my comment here would be the perceptions of the Iranians 
and other people in the region, again, would matter most. And 
the widespread perception would be anything Israel does would 
have been done with U.S. connivance; and there would be some 
actual physical, logistical, operational basis for assuming 
that, including possible use of Iraqi air space, where we're 
the people who really control it.
    Colonel Gardiner. If I could add quickly to two of the 
points. One of them is there's reason to be optimistic after 
some of the events of the last week.
    The release of the Iranians that have been captured, a 
portion from Mosul; the public announcement by military 
officials that we have had less IEDs, less attacks; and then 
Admiral Fallon's testimony in Financial Times. That is a major 
circuit breaker that was put in. We've narrowed--we've pulled 
back from the edge with the Iranians, and I think that was an 
important thing.
    As far as Israel is concerned, if I can go back to sort of 
the military dimension of the problem, they--the Iranians--
would have left over the capacity to do us severe damage if 
Israel does that without our involvement because they do not 
have the capability to destroy all those retaliation 
capabilities. We must make it clear to Israel that we won't 
tolerate them doing this by themselves.
    Mr. Tierney. Thank you.
    Thank you, Ms. McCollum.
    Mr. Shays, you're recognized for 5 minutes.
    Mr. Shays. Thank you.
    Again, Mr. Chairman, I really appreciate you having this 
hearing; and I appreciate our witnesses. I learn more, frankly, 
from witnesses who don't necessarily get classified material 
because then they can talk about what we all read in the New 
York Times. I can't talk about what we read in the New York 
Times because I'm told sometimes at a classified briefing. So 
it's--sometimes I choose not to be--get those briefings.
    But I want to ask a number of questions. First, I think if 
we ended up using military force in Iran, it would be a huge 
setback for us in the world. I don't know if we are going to 
position ourselves where that appears to be the only option.
    Do you all agree that you have basically three ways to deal 
with the issue: You talk, through diplomacy; you have sanctions 
and embargoes; and you use military force. Are those basically 
the three categories? Is there another one I can add?
    General Van Riper. Mr. Shays, I think anytime we begin to 
categorize, again, we narrow down the horizon. I think at this 
point----
    Mr. Shays. Are you going to give me another option besides 
those three? I only have 5 minutes. Is there another one that I 
am missing?
    Mr. Tierney. I'll give you a little longer time if the 
gentleman wants to respond.
    General Van Riper. If I did, sir, I would be doing the same 
thing. I'd just be adding to your categories.
    What I'm suggesting is that we do something like the Future 
of Iraq Project that was done by the State Department prior to 
the invasion of Iraq but was never utilized. We have a wider 
discussion that brings those sort of folks in, and these are 
mental models for constructing----
    Mr. Shays. But you're arguing for the diplomacy and the 
talks and that. That's fine, but I'm just asking, is there any 
other than those three? And you're not adding to the list.
    General Van Riper. Sir, what I'm coming from, I'm coming 
from Clausewitz's dictum. It's usually translated as ``war is a 
continuation of politics by other means,'' meaning you supplant 
the other means.
    The better German translation is----
    Mr. Shays. You're making an argument to me, I think, that 
you can avoid using military force by other means.
    General Van Riper. With a mixture of other means is the 
better translation.
    Mr. Shays. If the answer is no, I'd like to get on to the 
more important question.
    You have basically three ways to deal with it: diplomacy 
and all the art of dialog and so on; you have sanctions; and 
you have military use. And you have all these options within 
each group, and you disagree with my categories, and that's 
fine, but those are the three that I know.
    Colonel Wilkerson. I'd throw one more out there----
    Mr. Shays. OK, fine.
    Colonel Wilkerson [continuing]. Mr. Shays, and that's what 
I would call information, and that's what you're doing right 
now.
    Mr. Shays. Good. I think that's a good one to add. Thank 
you very much.
    In the end, I happen to believe that you should have 
embassies in every country, and there should be no requirement 
on what you do to get an embassy. In other words, we should 
have one in North Korea, we should have one in Cuba, and we 
should have one in Iran. I think to me that's one of the big 
lessons I've learned in the past years.
    If we had an embassy in Iraq, we would have known how 
pathetic, for instance, their infrastructure was; and, to be 
honest with all of us, we don't just have State employees in 
our embassies. So it would have been hugely helpful.
    What I take--I found myself reacting, Dr. Pillar, to your 
comments that, you know, tell me a country--there is no record 
of any country giving a nuclear weapon to a terrorist. And I'm 
thinking, well, that's true. And so I thought, well, that's 
kind of convincing. Then I thought, there was no record of any 
country or terrorist organization attacking the Twin Towers and 
bringing down the Twin Towers and taking--attempting to take 
four planes. There was no record of it. We could have said we 
don't need to fear that. So I don't take the same comfort you 
may take in it because, frankly, there aren't a lot of 
countries that have nuclear weapons.
    As we expand the list, it's very possible that we will see 
a new paradigm. I, for instance, think that, you know, Al Gore 
is right. There is this inconvenient truth of global warming. 
And I think, frankly, too many of my Republican colleagues 
don't want to deal with it.
    I, frankly, think too many of my Democratic colleagues 
don't want to deal with the inconvenient truth of the 9/11 
Commission which talked about Islamic terrorists who would do 
us harm. I feel like we're dealing with a different group, and 
I don't think those old rules--so I'm just responding to your 
comment about it.
    North Korea and Pakistan gave weapons to Libya, Iraq, or--
excuse me, technology to Libya, Iraq and Iran. Have they given 
them to any other country that we know of? Mr. Berman, any 
others?
    Mr. Berman. I'm sorry, sir. It doesn't roll off the tongue. 
If you give me a moment, I will try to come up with a list. I 
will say that the level----
    Mr. Shays. But those are the three, primarily, correct?
    Mr. Berman. The primary ones, yes, sir.
    Colonel Wilkerson. There were others involved in the AQ 
Khan network, but I'm not even sure I can talk about that here.
    Mr. Shays. OK. Unfortunately, you had a classified 
briefing, so you can't do it.
    I think the thing that I found the most significant is that 
a military attack might set back a nuclear program 2 to 5 
years. That was I think given by you, Colonel Gardiner, and do 
you all agree that's the extent of what would happen?
    Colonel Gardiner. Could I--I said the construction 3 to 5 
years. See, we can't know how----
    Mr. Shays. If other words, if you don't bomb--if you don't 
kill their scientists and their technology, you've just dealt 
with the construction aspect?
    Colonel Gardiner. That's the only thing we can be precise 
about.
    Mr. Shays. And so the reason why it worked a bit in Iran 
was it wasn't their scientists building the plant--the weapons 
grade material plant--in Iraq when Israel bombed it. In other 
words, there it lasted far more than 3 to 5 years.
    Colonel Gardiner. No, it actually accelerated. I'll go back 
to----
    Mr. Shays. I heard his comments. But, with all due respect, 
they did not build a weapons grade material plant. They stopped 
and didn't build one, correct? They did other things. They 
needed to still get the weapons grade material, correct?
    Who is--and, gentlemen, I'll end with this--who is the 
gentleman that was--was it you, Mr. Pillar, or the other 
statement, was it you, General Van Riper, who said that it 
accelerates the effort?
    Mr. Pillar. The experience after the strike on the Osirik 
reactor was Iraq switched from a plutonium cycle to a uranium 
cycle, and then we saw what the result was 10 years later.
    Mr. Shays. But the problem was that they needed to get the 
weapons grade material; and so the effort to prevent them from 
getting the weapons grade material plutonium, that succeeded, 
didn't it?
    Mr. Pillar. Mr. Shays, I was making a point about the 
effect on incentives.
    Mr. Shays. OK. But I'm making another point, and you can 
answer that. They did succeed in stopping them from getting the 
weapons grade material, correct?
    Mr. Pillar. No, sir, they didn't. Iraq redoubled its 
efforts, using the uranium rather than plutonium.
    Mr. Shays. And did they have weapons grade material?
    Mr. Pillar. They came--they came scaringly----
    Mr. Shays. No, the honest answer is no. They had the 
technology to build but not the weapons grade material, 
correct?
    Mr. Pillar. As of 1991, you're right, sir.
    Mr. Tierney. Thank you, Mr. Shays.
    Mr. Hodes, do you want to continue passing or do you want 
to go?
    Mr. Hodes. No, I'm ready.
    Mr. Tierney. Mr. Hodes for 5 minutes.
    Mr. Hodes. Thanks. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today.
    I really have no idea who my colleague, Mr. Shays, is 
referring to when he suggests that there are people here who 
don't understand the threat of terrorism that we face and are 
dealing with, especially in the post-9/11 era.
    It seems to me, to use a term that General Van Riper 
mentioned, we have an interactively complex situation in the 
Middle East now, made worse by our quagmire in Iraq. We have a 
resurgent Taliban and Al Qaeda. We have not enough force and 
effort in Afghanistan. Pakistan is in turmoil, with an ongoing 
question as to how it will shape up. We have involvement with 
Iran and Syria, with Hezbollah and Hamas, and a festering 
Israeli Palestinian situation; and, in the middle of that mix, 
we have the possibility of a nuclear-weapon-armed Iran, which 
adds to this stew.
    Do any of you have confidence that the United States 
currently has an adequate and articulable national security 
strategy to deal with this situation?
    Colonel Wilkerson. Directly answering your question, yes 
and no, they don't.
    Mr. Hodes. Thank you for that. That's a great start.
    Colonel Wilkerson. They have a horde of them, as was 
pointed out by one of the panelists, and none of them make a 
lot of sense to me. And I've read most of them, if not all of 
them, and this is most discouraging.
    Back to a point made earlier, there is only one place in 
your government, including you and this body, where strategic 
thinking goes on on a routine basis. That's in the policy 
planning staff of that pinko Commie bunch of people at Foggy 
Bottom. Nowhere else in your government does strategic planning 
go on.
    So that's part of the answer to the question why we don't 
have a coherent, reasonably logical strategy for dealing with 
all the challenges we confront, not the least of which is 
terrorism presented by people like Al Qaeda, Jemaah Islamiya 
and others who are intent on doing us harm, which I might add 
is probably an insignificant number of people in the world, and 
yet we're not focused on that very insignificant group of 
people. We're instead running it across the globe.
    You didn't even mention in your litany probably one of the 
most serious things happening today, and that is in the heart 
of Europe where people are planning--using the civil liberties 
that exist there, which in some countries even exceed our own--
using those to do planning to get together to do the kinds of 
nefarious things that Al Qaeda did to us and they have done in 
Madrid and Bali and London. And battle-hardened veterans of 
Iraq and Afghanistan are going to Europe to fill their ranks 
out. This is very dangerous.
    Mr. Hodes. Anybody else want to comment on whether or not 
you believe there is a comprehensive national security 
strategy? General?
    General Van Riper. Sir, as I mentioned in my testimony, I 
did a Web search; and I found 29 strategies the U.S. 
Government's produced to have national security or national 
security strategy in them.
    Until the Goldwater-Nichols Act of 1986, there was no place 
those of us in uniform could go to find a national security or 
national military strategy. That was rectified; and, in 1988, 
the first national security strategy was produced. For those of 
us who taught strategy, that was a wellspring, because we could 
go back and talk about how you could come from that document, 
work your way through military objectives and military action 
if needed.
    We had--before, we had a deficiency. Now, we have this 
excess. As I indicated, I don't know what they say. If we were 
permitted to return questions to the panel, mine would be, how 
many panel members have read any one or even one of these 
strategies?
    Most important, though, even if we'd all read them, how 
many American citizens have read them? How many American 
citizens understood them?
    Even as a 6-year-old, in World War II, I had some 
glimmering that we were fighting in Europe first and then we're 
going to fight in the Pacific. As a teenager, I understood what 
we were attempting to do in terms of the cold war with Korea; 
and certainly during the cold war, I understood and with my 
fellow students could talk about massive retaliation, flexible 
response.
    When I go on campuses today, I don't see those sorts of 
discussions about national security. As I said, the Nation's at 
the mall. Only the military's engaging in this in small, small 
groups. We need a national discourse.
    Mr. Hodes. Let me just followup. To the extent that anybody 
can discern from the large number of strategies that you've 
talked about some sense of a national security strategy, is 
anybody satisfied that what the administration is 
contemplating, talking about, thinking about and doing about 
Iran fits in to any comprehensive, articulable and organized 
strategy that would help bring Members of Congress along or the 
disengaged American populace to understand what threats we're 
facing, how we intend to face them and why we're doing what 
we're doing?
    General Van Riper. My response would be, absolutely not, 
sir.
    Mr. Hodes. Mr. Berman.
    Mr. Berman. I would concur. I think what we have with 
regard to Iran is not a strategy but several strategies that 
are being pursued by separate elements of the bureaucracy: 
economic punitive measures, diplomatic measures, and others. 
There's nothing resembling a coherent framework in which all of 
these can be integrated, at least not as of yet.
    Colonel Gardiner. Just two points to connect. One of them 
is going back to the question on firebreak or circuit breakers. 
If we had a strategy, it would help the Iranians understand our 
behavior better. I do not know, I can't articulate the U.S.' 
red line for Iran, meaning at what point we would use force.
    It has been said we can't allow them to have nuclear 
weapons, but, in his last press conference, the President said 
they can't have the knowledge to produce nuclear weapons. By 
that red line, we have crossed and we should be using force 
against Iran. We can't be that sloppy in our discussion of what 
our policies are with respect to Iran.
    Mr. Tierney. Thank you, Colonel; and thank you, Mr. Hodes.
    Mr. Hodes. Thank you, Mr. Chairman.
    Mr. Tierney. I just note that in the General's testimony, 
in a line he said, in the last 6 years, the Defense Department 
seems to have placed more emphasis on tactics and operations 
than designing meaningful strategy. I think that's exactly what 
you were getting at, is they might have tactics but what they 
were going to do if they haven't fit it into a strategy on 
that.
    That's why we're having another series of hearings, this 
particular committee; and I think some of you are aware of that 
running parallel with this on what is our strategy going 
forward in the full world arena on that and this and a host of 
other issues and how does it all fit in.
    Mr. Lynch, you're recognized for 5 minutes.
    Colonel Wilkerson. May I just reinforce that for a second?
    Mr. Tierney. Certainly.
    Colonel Wilkerson. When Ambassador Richard Haas and 
Secretary Powell sent me over to the Pentagon to establish 
joint staff liaison with the policy planning staff at the State 
Department, I encountered the military building its national 
military strategy. Rumsfeld subsequently forbade us at State to 
come back to the Pentagon or the Pentagon to come to State. But 
when I encountered it, I asked the man in charge of building 
the national military strategy how he was doing that in the 
absence of a national security strategy. He said, it's tough.
    Mr. Tierney. Mr. Lynch, you're recognized for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    I'm among a group of us here that believes that there 
should be some dialog at some level with Iran. We are all very 
careful not to undermine our State Department initiatives and 
the general policy, if you call it that, coming out of the 
State Department today.
    Are there examples in the past where--I'm sure during the 
cold war--there was talk about dialog going on? We've been 
approached, some of us on this committee, by members of the 
Bundestag and other members of the European Parliament to 
engage perhaps some members of the moderate political bent in 
Iran. And yet there is some reluctance there because of the 
position that the State Department has taken, and we don't want 
to undermine their central role in setting national policy.
    What are some of the solutions that you might see in terms 
of your own experience, your own knowledge of history and how 
we've handled this in the past? Is there a way to go forward to 
establish some type of dialog, even recognizing the absolutely 
offensive positions that have been taken by Ahmadinejad 
publicly?
    Mr. Pillar. Mr. Lynch, if I can respond, we don't even have 
to go as far back as the cold war. We have the sterling example 
in Libya, which led to the tripartheid agreement between Libya, 
United States and U.K., which in my judgment was a foreign 
policy success for the Bush administration and the Blair 
government.
    And what happened there was we talked to them, and there 
were at that time secret, but now it's been made public--and 
this does go back to my personal experience, because I had the 
privilege of being part of the initial rounds of secret talks 
that began in 1999, which led then finally to the agreement 
which resulted in the dismantling of the Libyan unconventional 
weapons program and their becoming a partner, rather than an 
adversary on terrorism.
    So the two key lessons to take from that, No. 1, we talked 
and, No. 2, we talked with an open agenda. We discussed 
everything of concern to us, about terrorism, about Qaddafi's 
rather erratic diplomacy and about unconventional weapons; and 
we also talked about the things that were on the Libyan's mind 
as well. And we eventually had success, and I give the 
administration a lot of credit for that, by the way.
    Mr. Lynch. Mr. Berman.
    Mr. Berman. If I may, sir, I would add one caveat to Dr. 
Pillar's comments.
    I think it pays to take a look at the political center of 
gravity within the Islamic republic. It's quite clear that the 
current nuclear crisis is reaching a point in which the 
compulsion to do a deal on our part is actually very great. We 
would like very much to avoid a conflict. We would like to 
reach some sort of negotiated settlement.
    I think--I often say there's really only two things that 
you can't escape. You can't escape geography, and you can't 
escape demography. Iran is a country of 70 million people in 
which two-thirds of the population, 50 million people, are 35 
and younger, which means they've lived all or most of their 
lives under the Islamic republic. And they are uniformly, 
according to all sorts of polls done by both Democrats and 
Republicans, disaffected and discontented with the current 
state of affairs.
    I would be very careful to articulate a negotiated 
settlement that makes those people, that constituency, view us 
as having abandoned support for them in favor of support for a 
regime that is, frankly, unpopular and swimming against the 
tide of history.
    Mr. Lynch. OK.
    Colonel Wilkerson. Can I just pick up on those very same 
points?
    Iraq is the hegemony in the Persian Gulf by demography, by 
size and a number of other factors that a strategist would look 
at. We recognize that. That's the reason we overthrew Mossadegh 
in 1953 with Kermit Roosevelt, Frank Wisner, and a bunch of 
leftovers from the OSS in World War II.
    We then installed the Shah, and for 26 years we fed that 
hegemony. We fed it with $20 billion worth of arms from Richard 
Nixon and Henry Kissinger. Read Robert Dowlick's book and you 
will understand just how significant this transfer was. We 
almost decided to give them nuclear weapons.
    Then comes the revolution, and all of a sudden we've got a 
different set of people in Tehran. That doesn't change the fact 
they're still a hegemony, and we need to recognize that. Iraq, 
of course, balanced them for a while. We took Iraq's side in 
the Iran-Iraq war. We did. Iran would have beaten Iraq had we 
not done that, even though Iraq had strategic, operational and 
tactical surprise on Iran when it attacked.
    So they are the hegemony. We need to recognize that; and we 
need to deal diplomatically, economically and otherwise with 
coming to some kind of accommodation with that very real 
strategic reality.
    Mr. Lynch. Thank you.
    Mr. Tierney. Thank you, Mr. Lynch.
    Mr. McDermott.
    Mr. McDermott. Thank you, Mr. Chairman.
    John Kennedy got into the Bay of Pigs----
    Mr. Tierney. I think you need to put your mic on. The 
``up'' position is on.
    Mr. McDermott. John Kennedy got into the Bay of Pigs; and 
then, when it came to the Cuban Missile Crisis, he said to his 
brother, hey, get everybody in here on all sides of this issue. 
Let's have a little talk about it before we go off in any kind 
of strange way.
    It seems to me we're in a similar kind of situation here, 
and I want to ask about a process that I hear people talk 
about, never sat through one, don't know what they really are. 
They're called war games. How many of you have actually 
participated in a war game?
    So you have all been through one.
    The possibility--I know Mr.--Colonel Gardiner's putting one 
on CNN here shortly. What about having the Congress go through 
that process over in the Caucus Room in the Cannon Building or 
down in the basement of the Capitol and let us actually 
experience it? Tell us what that would do for us in terms of us 
letting--if we're the ones that are supposed to declare war, 
like the Constitution says--because what scares people like me 
is the people in the White House right now says the President 
has enough authority to go ahead and do whatever he wants in 
Iran. And I still believe the Constitution is correct, that we 
have the right, but we really don't know what the options are.
    I mean, this is as close to an exploration of the options 
as will happen in the U.S. Congress. I'd like to ratchet it up 
one level. Tell me about a war game for all of us.
    Colonel Gardiner. I started teaching at the War College and 
became dissatisfied with the way students understood strategy 
after the traditional teaching methods. I began war gaming 
because--for two reasons. No. 1 is there's a very fundamental 
thing about adults learning. Adults don't learn when they're 
told. I mean, you will remember 10 percent of what I tell you 
within an hour, but within 2 days you won't remember anything. 
If you participate in the process, if you experience the 
process, if you have a sense for the decisions, I will tell you 
that you will understand the situation better. That's the first 
thing I will tell you.
    The second thing I will tell you, I know by experience and 
having done this with people who have served in the White 
House, who have been Chiefs of Staff in numbers of 
administrations, will say, wow, I had no idea 'til we did this 
what I learned.
    And I used in my briefing an example that came out of one 
of those games for senior people, who said, I see now, if we 
start down this road, eventually the President will be put in a 
position where he has no choice but to go for regime change 
because the situation will unfold to that thing.
    I mean, that's the kind of thing that I think you begin to 
see understandings for. I think, you know, there are 
techniques, and I will--let me just build on what General Van 
Riper says, that he used the term ``wicked problem.'' That's a 
term that architects use, and when architects talk about a 
``wicked problem,'' they don't mean you back away from it. When 
architects say a ``wicked problem,'' it's like the design of a 
room. You don't find a solution analytically, but you try 
different arrangements till you say, wow, I got the furniture 
in a good place. The only way you can do that is by trying, 
exercising, and participating, I think.
    Colonel Wilkerson. That's what diplomacy is all about.
    Mr. McDermott. And is it possible--could you take 25 of us, 
picked randomly from the floor, and put us through a war game 
and come out with--and let the American people see it through 
television and the press and whatever watching it? General.
    General Van Riper. Sir, I would encourage a step before 
that, though I certainly would encourage what you are 
suggesting.
    The term before was mentioned ``strategic planning.'' 
There's a wonderful book by Henry Mintzberg, called ``The Rise 
and Fall of Strategic Planning,'' and what he points out, in 
all fields in our society--government, industry, academia--
those in the senior leadership positions find themselves so 
busy with day-to-day activity they walk away from setting the 
strategy and turn it over to the planners. And planners do what 
they do best, they plan.
    The analogy I would use is the skipper of a naval vessel 
who would say to his navigator, pick the port and chart the 
course. That doesn't happen. The captain picks the port and 
observes as the navigator charts the course.
    So, strategic planning, as he said, is an oxymoron. What we 
first need is to involve the most senior leaders in this. 
Otherwise, it will be the same thing. It will be a plan that 
they have no investment in.
    The second step, after we persuade the very top national 
leadership to be involved in your game, is to become informed 
on the problem. There's no use starting the game until we 
understand, No. 1, what is the problem and what's the context, 
how have we framed it, how have we said it, how have we 
formulated it, and then there might be some hope of gaining 
something from that game.
    Mr. McDermott. But we here are always trying to smell the 
forest from the back of a galloping horse. How do we do that 
first step? How do we get the leadership and the committee 
chairmen and whatever that might be necessary, or could we have 
some benefit from just using ordinary troops like us?
    General Van Riper. I'm not optimistic at this point, and 
I'm on this side of the committee from--for 60 years as I 
voted--I'm sorry, it's 50 years as I voted, but I'm not 
optimistic. And the reason I'm not optimistic, before the term 
``information'' or ``information operations'' was used, we hear 
that, we hear public diplomacy, strategic communications. All 
that is in the realm of technical or tactical.
    We, as a Nation, have lost the strategic narrative. Our 
President has lost the strategic narrative. I find it sometimes 
hard to believe what he's telling, and I'm from his party. So 
until we regain the strategic narrative, I'm not sure how we 
can tell our story around the world and be credible.
    So as much as I would encourage this intellectual activity 
prior to the game, I fear we may have to wait for another year 
and a half before it will be of benefit, which may, 
unfortunately, be too late.
    Mr. Tierney. Thank you, Mr. McDermott.
    We're going to allow one question per member of the panel 
here, since we've gone through for the 5 minutes once, and I 
just want to raise one point with the General.
    The PBS program ``Nova'' and Malcolm Gladwell's book 
``Blink'' features vignettes of the gigantic $250 million 
Defense Department war game called the Millennium Challenge of 
2002. I think you mentioned--alluded to that in your remarks.
    In it, they say that you revealed how, as the leader of the 
enemy forces, you inflicted enormous and unexpected casualties 
on the American fleet and ground troops, invading a country in 
the Persian Gulf. This apparently displeased the Pentagon 
leadership so badly they stopped the exercise, refloated the 
sunken ships and revived the dead and started over with a 
script requiring you to do as they expected. You refused.
    Would you tell us what the lessons of that war game were 
and the lessons of the Pentagon's reaction mean to us when 
we're considering what's going on here in Iran?
    General Van Riper. First, let me proceed by saying that was 
the most corrupt thing I ever saw the American military do. The 
good news is I never saw it before; I've not seen it sense.
    I do not believe with the new leadership--and I'm very 
encouraged by the new Secretary, the new chairman. I'm very 
encouraged with General Jim Mattis who took over the Joint 
Forces Command, which is where this particular game was played, 
that we would never see something like that.
    Under the previous leadership in the Pentagon, they did not 
seem the least bit interested in what might have been gained 
from that particular game. There was an idea at the beginning, 
preconceived of how it was going to be. It was billed as free 
play. That is, I, as the red commander, military commander 
would have a great deal of latitude because they were so 
convinced these non-ideas would work.
    When they didn't, they simply scripted it to a pre-ordained 
conclusion, which I would have had no problem with, until I saw 
them brief congressional staffers and brief the media that this 
was still a free play exercise and these, as I described them, 
non-ideas had proved successful.
    Unfortunately, those ideas are like a virus. They're 
permeating our military forces now, not to the good, and I 
think is one of the reasons we haven't had the serious 
strategic discussions from the uniform side in the last 5 to 8 
years.
    Mr. Tierney. Mr. Shays, your question.
    Mr. Shays. Thank you. I want to read you a quote from Mr. 
Sarkozy, and I'd like to--and Chancellor Merkel, and I'll like 
to get your reaction. ``There will be no peace in the world.'' 
This is from Sarkozy. There will be no peace in the world if 
the international community falters in the face of the 
proliferation of nuclear weapons. Iran is entitled to power for 
civilian purposes, but if we allow Iran to acquire nuclear 
weapons we would incur an unacceptable risk to the stability of 
the region and stability of the world.
    And German Chancellor Merkel said, ``Iran is ignoring U.N. 
Sanctions Council resolutions. Iran is blatantly threatening 
Israel. Let's not fool ourselves. If Iran were to acquire a 
nuclear bomb, the consequences would be disastrous.''
    This isn't President Bush or anyone else. These are two 
pretty cautious leaders, for the most part.
    My question to you is, can any of you see a circumstance 
where you would recommend to the President of the United States 
to use military force in order to prevent Iran from acquiring 
nuclear weapons?
    I'd like each of you to answer that question.
    Colonel Wilkerson. Let me start by saying that I would then 
ask Mr. Sarkozy and Angela Merkel, as I did Joschka Fischer 
when he made similar comments, how many German troops, how many 
French troops?
    Mr. Shays. Fair enough.
    Colonel Wilkerson. And the answers were not very good.
    Mr. Shays. That's a great answer. Thank you.
    Colonel Gardiner. I would answer it in probably not a 
direct way that you would like.
    What I would say is, we've got to keep reminding ourselves 
this is not a crisis that is coming down on us immediately. 
They're having trouble with the P1s. That's a long path to make 
a weapon. We've got to remember we've got some time. So I think 
that there's--I always preface this, we don't have a crisis 
other than of our own creation right now.
    Mr. Shays. Neither of you ruled out military force, but 
you're suggesting that there's time, you're suggesting that 
other people need to put their oar in the water, too, and so 
on.
    Dr. Pillar.
    Mr. Pillar. Mr. Shays, I think you correctly identified in 
your opening comments what I would regard as the main downside 
of an Iranian nuclear weapon, and that is the impact on 
proliferation elsewhere in the Middle East. And I agree with 
your earlier comments, that when you look at Egypt, Saudi 
Arabia and so on, there might be a cascading effect. But 
exactly the point that Colonel Gardiner mentioned, there is not 
something we are facing now or probably even close to it.
    And on the issue that was raised before about deterrence, 
deterrence works. It does not depend on a specific ideology or 
degree of extremism or lack of it. Deterrence worked with the 
likes of Stalin and Mao. And even though there is so much in 
the current Iranian leadership which is anathema to us and 
extreme, they are not suicidal; and that is the basis for 
deterrence working, even with the kinds of uncertainties that 
Mr. Berman correctly mentioned before.
    We haven't had the whole decades to buildup a strategic 
doctrine like we and the Soviets did, but we're dealing with 
that situation in the south Asia, too, with the Indians and 
Pakistanis.
    Mr. Berman. I'm sorry, I would take a very different view 
of the feasibility of deterrence, for a number of reasons. 
Among other things, because I find it facile to the extreme to 
assume that the same value on human life that we impose upon 
our own society, that we calculate as part of our strategic 
calculus, is applied on the other side.
    I think there's plenty of evidence in the public record on 
the part of not only Mr. Ahmadinejad, who is correctly 
perceived as not quite the most stable player in the Iranian 
game, absolutely true, but with regards to others as well, key 
senior players who are seen as rational, former President 
Rafasanjani, Supreme Leader Ali Khamenei, that would give one 
pause if we were to seriously think about whether or not it 
would be credible to assume that if this regime acquires a 
nuclear capability, we would, under any conceivable 
circumstance, be able to prevent them from utilizing these 
weapons and be able to prevent them from acting hostilely or 
being more emboldened.
    Mr. Shays. Let me get the General's answer. Thank you.
    General Van Riper. War is certainly an instrument of 
policy; and there are occasions, unfortunately, when it's the 
Army instruments going to work. I think in terms of Nazi 
Germany, there was no answer in that era. I don't think, though 
others have used that analogy, that we're at that point at this 
particular time.
    Mr. Tierney. Thank you.
    Thank you, Mr. Shays.
    Mr. Yarmuth, do you have a question?
    Mr. Yarmuth. Yes. First of all, since Mr. McDermott 
mentioned Article I of the Constitution, I want to give him one 
of my buttons here so that he can wear it around. I agree 
totally with his characterization of the authority.
    I want to just followup on something Mr. Shays said, the 
whole issue of preemptive war and whether the President's 
mention of knowledge of the atomic bomb--I mean, the formula of 
the atomic bomb was published in a Madison, WI, newspaper 27 
years ago. I mean, everybody has access to how to do it. So 
that would be a pretty low bar to reach.
    I'm curious as to whether the issue of--whether just the 
mere possession of atomic weapons sets a standard for 
preemptive war which has serious ramifications in maybe other 
arenas. Are we at risk if we were to engage upon military 
action simply because a country possessed--no matter how 
dangerous--possessed an atomic weapon? Does that have 
ramifications beyond that setting?
    Mr. Tierney. Who were you asking that?
    Mr. Yarmuth. I think Colonel Wilkerson seems like he's 
anxious to answer it.
    Colonel Wilkerson. I just--I've got to run, and I just want 
to make one comment. I think this may sound like semantics, but 
I don't think it is. It certainly isn't for a soldier.
    There's a difference between preventive war and preemptive 
war. Preemptive war, if it's provable, is even recognized by 
Article 51 of the U.N. Charter. This is preventive war. This is 
not preemptive war. There's no proof that the weapon is there 
ready to be launched at the United States or Israel or anybody 
else. You'd have a hell of a time proving that in a court of 
international law. That might not be very comforting, but it 
does mean this is a different calculus that we are starting 
with regard to war, and I would submit, as a soldier and a 
citizen, it's a very dangerous calculus.
    Mr. Yarmuth. Possession by itself would be inadequate 
without proof that there was an imminent attempt.
    Colonel Wilkerson. I think you'd need even convincing 
proof.
    Mr. Tierney. Mr. Hodes, I think you may be able to have one 
question before we go to vote.
    Mr. Hodes. I'll keep it to one.
    Given what we saw in our efforts in Iraq in terms of lack 
of planning and preparedness, what's your sense on the level of 
preparation in military planning that has been done to defend 
against the full range of potential Iranian reactions in 
contrast to planning for U.S. offensive efforts on Iran's 
nuclear sites? Dr. Pillar.
    Mr. Pillar. I'm certainly not privy to the plans. I think 
probably on the military side there's been more planning than 
on some of the other dimensions we discussed, the political and 
the diplomatic, but Iran, I think, has been a presumed foe in a 
lot of military planning that's already gone on.
    But the question would probably be things having to do with 
availability of resources and so on, given our continuing 
commitments in Iraq.
    Mr. Tierney. Thank you.
    Mr. Lynch, do you have a question?
    Mr. Lynch. Very quick one, Mr. Chairman.
    Gentlemen, during the Soviet invasion of Afghanistan during 
the 1980's, the United States, largely the CIA and largely in a 
secret effort, supplied training to the mujahideen, supplied 
Stinger missiles to mujahideen, supplied training to the tribal 
leaders there, Stinger missiles being used to shoot down Soviet 
helicopters. A lot of that was just below the surface, but I'm 
sure a lot of folks, including the Soviets, knew where that was 
coming from.
    Now we are trying to stop Iran from acting in a similar 
just-below-the-radar effort against our own troops, supplying 
weapons, supplying training against our forces. By our conduct 
in the region, have we forfeited the moral high ground to 
complain about that type of activity that's going on right now?
    Mr. Tierney. Who would you like to answer that question, 
Mr. Lynch, because we only have time for one.
    Mr. Lynch. Anyone who would be crazy enough to answer it.
    Colonel Gardiner. I will be crazy. I don't know, but there 
is enough in the open literature to suggest that the United 
States is backing groups that are conducting operations inside 
Iran right now, and there are a number mentioned, the MEK, the 
PJACK in the north, sort of the offshoot of the PKK. The 
Iranians write about it. The Turkish write about it. Seymour 
Hersh has written about it in the New Yorker. There has to be 
an element of truth, in my mind.
    Mr. Lynch. There's a lot of activity going on around that 
Iranian border, no question about it.
    Mr. Tierney. Thank you, Mr. Lynch.
    Mr. McDermott, your final question.
    Mr. McDermott. Colonel Wilkerson, you were in the State 
Department who created the plan for what we should expect in 
Iraq after the war. It was thrown away by the Defense 
Department. Is there anybody or has anyone done a similar thing 
about Iran that is hidden somewhere or buried in a wastebasket 
somewhere or that we can get our hands on?
    Colonel Wilkerson. The Future of Iraq Project is well-
known, as you've just indicated. What is not well-known is that 
General Horr, General Chris, General Zinni and a host of other 
Central Command commanders had some rather elaborate planning 
for what's called phase four should we go to war with Iraq, 
which everyone thought was at the top of Central Command's 
list, for contingency planning and deliberate planning.
    Mr. McDermott. For going to war with Iraq?
    Colonel Wilkerson. Right.
    With Iran, the same thing exists. I would be willing to 
tell you, almost, you know, take an oath to it, that the 
Central Command Commander has on the shelf a plan for war with 
Iran, a number of different iterations of that. He's probably 
got it down, dusting it off and working on it right now. And 
there is a phase four, and that phase four would probably 
indicate to you everything we've said here today, how 
astronomically difficult it will be with the resources we have 
to carry out that plan.
    Mr. McDermott. But nothing at the State Department similar 
to.
    Colonel Wilkerson. I don't think there is. I'm not aware 
that there is. There are experts and so forth, but I don't 
think they've done the kind of planning with regard to that 
country that they did with regard to Iraq.
    Mr. Tierney. Thank you very much.
    I want to thank my colleagues----
    Mr. McDermott. Is it that the only Intelligence Committee 
can get that data?
    Colonel Wilkerson. They should be able to.
    Mr. McDermott. Thank you.
    Mr. Tierney. I thank my colleagues for their questioning 
and thank each one of the panel members. Colonel Gardiner, 
Colonel Wilkerson, Dr. Pillar, Mr. Berman, and General Van 
Riper, thank you all very, very much for your expertise.
    This hearing will be replicated on our Web site for people 
to get to see the transcripts of all three hearings, including 
all the testimonies here on http://
nationalsecurity.oversight.house.gov/; and we hope you will 
take advantage of it. The testimony you gave us today, I think, 
was very significant and helpful as we try to determine policy 
moving forward.
    Thank you again for your time and for your patience during 
the various votes. Thank you.
    Meeting is adjourned.
    [Whereupon, at 4:46 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
